<html>
<title> - DRUG PREVENTION PROGRAMS AND THE FISCAL YEAR 2006 DRUG CONTROL BUDGET: IS THE FEDERAL GOVERNMENT NEGLECTING ILLEGAL DRUG USE PREVENTION?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
DRUG PREVENTION PROGRAMS AND THE FISCAL YEAR 2006 DRUG CONTROL BUDGET: 
   IS THE FEDERAL GOVERNMENT NEGLECTING ILLEGAL DRUG USE PREVENTION?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2005

                               __________

                           Serial No. 109-71

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-687                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                         Nick Coleman, Counsel
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2005...................................     1
Statement of:
    Curie, Charles, Administrator, Substance Abuse and Mental 
      Health Services Administration [SAMHSA], Department of 
      Health and Human Services..................................    40
    Dean, General Arthur T., ret., chairman and CEO, Community 
      Anti-Drug Coalitions of America; Stephen J. Pasierb, 
      president and CEO, Partnership for a Drug-Free America; 
      Bonnie Hedrick, Ph.D, executive director, Ohio Resource 
      Network for Safe and Drug Free Schools and Communities; 
      Clarence Jones, coordinator, Safe and Drug-Free Youth 
      Section, Fairfax County, VA Public Schools; Tracy McKoy, 
      parent coordinator, Fairfax County, VA; and Ashley 
      Izadpanah, student, Fairfax County, VA.....................    64
        Dean, General Arthur T...................................    64
        Hedrick, Bonnie..........................................   131
        Izadpanah, Ashley........................................   149
        Jones, Clarence..........................................   142
    McKoy, Tracy.................................................   148
        Pasierb, Stephen J.......................................   119
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    11
    Curie, Charles, Administrator, Substance Abuse and Mental 
      Health Services Administration [SAMHSA], Department of 
      Health and Human Services, prepared statement of...........    43
    Dean, General Arthur T., ret., chairman and CEO, Community 
      Anti-Drug Coalitions of America, prepared statement of.....    67
    Hedrick, Bonnie, Ph.D, executive director, Ohio Resource 
      Network for Safe and Drug Free Schools and Communities, 
      prepared statement of......................................   133
    Izadpanah, Ashley, student, Fairfax County, VA, prepared 
      statement of...............................................   152
    Jones, Clarence, coordinator, Safe and Drug-Free Youth 
      Section, Fairfax County, VA Public Schools, prepared 
      statement of...............................................   145
    Pasierb, Stephen J., president and CEO, Partnership for a 
      Drug-Free America, prepared statement of...................   122
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Prepared statement of....................................     4
        Prepared statements of Mr. Peterson and Ms. Taft.........    26


DRUG PREVENTION PROGRAMS AND THE FISCAL YEAR 2006 DRUG CONTROL BUDGET: 
   IS THE FEDERAL GOVERNMENT NEGLECTING ILLEGAL DRUG USE PREVENTION?

                              ----------                              


                        TUESDAY, APRIL 26, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2203, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, Norton, and 
Watson.
    Staff present: Marc Wheat, staff director and chief 
counsel; Nick Coleman and Michelle Powers, counsels; Malia 
Holst, clerk; Tony Haywood, minority counsel; and Jean Gosa, 
minority assistant clerk.
    Mr. Souder. The subcommittee will now come to order.
    Good afternoon and thank you all for coming. This hearing 
is the third in a series of hearings providing oversight of the 
President's budget proposal for drug control programs, as well 
as for legislation to reauthorize the Office of National Drug 
Control Policy in the High Intensity Drug Trafficking Areas 
program.
    This hearing will focus on the President's proposal for the 
Federal Government's drug use prevention programs. Prevention, 
``stopping use before it starts,'' in the words of President 
Bush's recent National Drug Control Strategy Report, is a vital 
component of any effective drug control strategy. In many 
respects it is the most important component since it is a 
demand for drugs that attracts the supply. Prevention aimed at 
reducing drug use by young people is, in turn, the most 
important kind of demand reduction.
    The Federal Government's major prevention programs include 
the Safe and Drug-Free Schools program at the Department of 
Education, which includes formula grants to the States, and 
national programs; the National Youth Anti Drug Media 
Campaigns--the so-called Media Campaign at the Office of 
National Drug Control Policy, which helps fund a national 
advertising campaign to educate young people and parents about 
the danger of drug abuse; the Drug Free Communities Program at 
ONDCP, which provides small grants to local coalitions of 
organizations and individuals who come together for drug use 
prevention efforts in their communities, and prevention 
programs funded through grants provided by the Center for 
Substance Abuse Prevention, part of the Substance and Mental 
Health Services Administration [SAMHSA], at the Department of 
Health and Human Services.
    The Federal Government also funds significant research and 
development of drug prevention methods through CSAP and 
Counter-Drug Technology Assessment Center [CTAC], at ONDCP. The 
Federal Government also funds research into the health risks of 
drug abuse at the National Institute of Drug Abuse [NIDA], a 
division of the National Institutes of Health [NIH], which are 
also part of HHS, the Health and Human Services Department, the 
results of which are then publicized by NIDA and other Federal 
agencies.
    The administration's budget proposals for these programs 
raise very serious questions about the future of Federal 
prevention efforts. The SDFS State Grants, Safe and Drug-Free 
Schools, which Congress funded at $437 million in fiscal year 
2005, are being targeted for total elimination. The national 
programs would only increase from $155 million to $232 million, 
creating a net loss of nearly $360 million in drug prevention 
education funds.
    The DFC and Media Campaign, which would be flat-funded, 
which, when inflation is taken into account, especially 
inflation in advertising rates, amounts to a decrease in total 
resources for the programs. Even SAMHSA's prevention funds will 
be reduced by $14 million, from $198 million for fiscal year 
2005 to $184 million; while NIDA's prevention research funds 
would increase by only $2 million, from $412 to $414.
    As a result, prevention now accounts for only 13 percent of 
the total drug control budget. This raises significant question 
about the administration's prevention strategy.
    Although the administration has valid concerns about how 
effective our prevention programs have been in reducing drug 
use, I believe the appropriate response is to reform existing 
programs by making them more accountable or to propose new and 
better programs. The administration's deep cuts, unaccompanied 
by any new proposals, suggests a significant abandonment of 
even the concept of prevention. That would be a serious 
mistake. Unless the Nation is able to reduce drug use demand, 
there will always be a market for illegal drugs.
    These budget proposals are particularly regrettable given 
the previous improvements the administration made in Federal 
prevention strategy. For example, ONDCP has revitalized the 
National Youth Anti-Drug Media Campaign. In the late 1990's, 
the Media Campaign had suffered from a lack of direction, as 
well as contractor difficulties, due to accounting 
irregularities by Ogilvy and Mather, the advertising firm 
responsible for the Media Campaign. Questions were raised as to 
whether the Media Campaign should be continued at all.
    ONDCP Director John Walters made the Media Campaign a major 
priority for the administration. First, ONDCP took steps to 
resolve the accounting irregularities, eventually replacing 
Ogilvy and Mather. Second, the Media Campaign sought to 
maximize its impact by running a series of advertisements 
intended to educate young people and parents about specific 
problems, including the dangers of ecstasy and the link between 
drug trade and terrorism, the importance of parental guidance, 
and the risks of marijuana use.
    The results--increased accountability, increased awareness 
among young people of the dangers of drug use, and decreased 
youth drug abuse--speak for themselves. Although not all of the 
program's advertisements are equally successful, that is true 
of any advertising campaign. Overall, the Media Campaign has 
been established as a major component of effective drug control 
policy.
    The administration has also taken a leadership role in 
promoting drug testing in the schools. Drug testing shows great 
promise in preventing young people from using narcotics. It 
also is a tool for identifying which students need treatment 
and other special help to get them off drugs and achieve their 
true potential. It also is an excellent tool for measuring the 
success of other drug prevention programs, as it shows whether 
the true bottom line, reducing drug use, has been achieved. 
Instead of cutting Safe and Drug-Free Schools and other 
programs, the administration should provide the same kind of 
innovative leadership.
    Safe and Drug-Free Schools and similar programs have great 
potential as a vehicle for bringing effective anti-drug 
education to millions of young people in our schools. The 
program has certainly suffered from a lack of accountability 
due to statutory limits on data collection, as well as a lack 
of focus on drug abuse education.
    The administration has never attempted to reform this 
program whatever, which ought to be the first step, not 
eliminating it entirely. And I want to say this as a member of 
the Education Committee, and as somebody who was on it when we 
did this and we got no leadership at the time we authorized the 
program either, other than eliminating it.
    It is more important than ever for ONDCP to focus attention 
on this vital area of drug policy. Regrettably, neither ONDCP 
nor the Department of Education was able to send a witness to 
discuss the administration's inadequate budget request. 
However, I am pleased to welcome my friend and fellow Hoosier, 
Charlie Curie, the Administrator of SAMHSA, to discuss the 
prevention budget and strategy from the perspective of his 
agency. We are grateful to him for joining us today.
    As with all of our hearings dealing with these issues, we 
try to reach out to private organizations and local communities 
to learn about the potential impact of budget changes. 
Representing two of the largest and most distinguished 
prevention organizations, we are pleased to be joined by 
General Arthur Dean, chairman and CEO of Community Anti-Drug 
Coalitions of America; and Mr. Stephen Pasierb, president and 
CEO of the Partnership for Drug-Free America.
    We also welcome Ms. Bonnie Hedrick, executive director of 
the Ohio Resource Network for Safe and Drug-Free Schools and 
Communities; Mr. Clarence Jones, coordinator of the Safe and 
Drug-Free Youth Section at Fairfax County, VA Public Schools; 
Ms. Tracy McKoy, a parent coordinator in Fairfax County; and 
Ms. Ashley Izadpanah, a student volunteer in Fairfax County.
    We thank all of our witnesses for joining us today, and we 
look forward to hearing your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T3687.001
    
    [GRAPHIC] [TIFF OMITTED] T3687.002
    
    [GRAPHIC] [TIFF OMITTED] T3687.003
    
    Mr. Souder. I now yield to our ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, first of all, I want to welcome to our 
hearing some young people from the Close Up Foundation, and we 
have students here from Michigan, Mississippi, and Louisiana.
    We are very, very happy to have you all with us. You are 
seeing government in action and issues that affect you, so it 
is nice that you came on the day that you came, because a lot 
of the issues that we deal with go to trying to prevent young 
people from entering the world of illegal drugs. So we welcome 
you.
    Mr. Chairman, I want to just start off by quoting an 
article that you are quoted in. It is by Paul Singer and it is 
the National Journal, and it is dated April 23, 2005. Now, I am 
not going to do your quotes, but I am going to say this. Let me 
show you how the article starts. ``If you can name the current 
drug czar, you are probably mad at him. Republican and 
Democratic Members of Congress, law enforcement officials 
around the country, academics who study drug policy, even 
former and current staff members are raising complaints about 
the performance of the White House Office of National Drug 
Control Policy. Under the leadership of John Walters, the 
Office is accused of retreating from its mission, abandoning 
key programs without consulting with Congress, and losing or 
forcing out key staff members with years of experience.''
    I will skip a little bit. Then it says, ``Walters has 
clearly lowered the profile of the Office, critics say, and in 
some cases withdrawn from consultation even with those agencies 
that are considered allies.''
    The reason why I read that, Mr. Chairman, is because I am, 
too, very concerned that we would invite ONDCP here to talk 
about what is going on in the Department and they not show up. 
It is an insult to me; it is an insult to the Congress of the 
United States of America. And I don't say that very lightly. I 
don't know about you, Mr. Chairman, but when I come to 
Washington, I come to do the people's business. I have a lot of 
work to do in Baltimore in my district. So when I rush down 
here on a Tuesday, when I could get here at 6:30, and I get 
here at 2, I expect the people that we want to come to testify 
to be present.
    And with that introduction and what has been said about 
Drug Czar Walters--and understand he is a friend of mine. I 
have supported him 100 percent even before he got into this 
position, and have consistently done it. When you cannot send 
an under-staffer, you know, send me somebody to defend your 
budget and the situation, and then we have all these wonderful 
people who can show up, it says a lot. And I think that 
somebody needs to get that message to Drug Czar Walters, that 
the Congress will not stand for that.
    Now, as we noted in the past, Mr. Chairman, drug abuse 
accounts for the loss of some 20,000 lives in the United States 
each year. Most of these deaths are attributable to the use of 
hard drugs such as heroin, cocaine, meth, and ecstasy, but all 
illegal drug use takes a toll on our society, and the more 
effective we are in preventing people from using any drug in 
the first place, the better our chances for achieving a drug-
free America.
    The costs inflicted on individuals, families, communities, 
and the Nation as a whole--in terms of reduced academic 
achievement, employment prospects and productivity, increased 
risk of illness and substantial healthcare costs, family strife 
and dissolution, drug-related crime and violence, soaring 
criminal justice system costs, and loss of human promise--are 
simply too immense for us not to do all that we can to educate 
and persuade Americans to avoid using drugs. That is why I 
believe that it is imperative that we do just that, that we 
invest, but invest heavily, in drug prevention.
    Unfortunately, Mr. Chairman, the President's budget for 
fiscal year 2006 does not take that path. Instead, the 
administration has made the choice to reverse ground on 
prevention at a time when we clearly need to move forward.
    Overall, the President's budget request of $12.4 billion 
for drug control programs in fiscal year 2006, up from 
approximately $12.2 billion in fiscal year 2005, according to 
ONDCP, ``the President's fiscal year 2006 budget increases 
funding levels for drug programs throughout the Federal 
Government.'' But a close examination of the budget reveals 
that the administration is proposing significant increases for 
international supply reduction efforts at the expense of both 
demand reduction and support for State and local drug 
enforcement.
    Whereas the fiscal year 2005 drug budget allocated 
approximately 45 percent of Federal drug control funding to 
demand reduction, only 39 percent would go to the demand 
reduction side in fiscal year 2006. But the total of $4.8 
billion allocated for demand reduction in fiscal year 2006 is 
not just a smaller percentage of the drug budget; it also 
represents a net reduction of about $270 million compared to 
the level appropriated by Congress in fiscal year 2005.
    A mere 8.3 percent of the total drug control budget would 
go to prevention programs, versus 11.3 percent in fiscal year 
2005. In my opinion, the 13.3 was inadequate, and 3 percent 
less is moving in the wrong direction.
    And let us not overlook the fact that this is a drug 
control budget that does not even account for more than $4 
billion in Federal funds devoted to the incarceration of 
convicted drug offenders.
    The most severe program cut in the area of prevention is 
the elimination of $441 million in funding for grants to States 
under the Safe and Drug-Free Schools program within the 
Department of Education. If we enact the President's request, 
the consequences will be felt in classrooms across the country, 
where States and localities simply cannot afford to fund drug 
education on their own.
    The Drug-Free Communities Support Program, which leverages 
the resource of community coalitions organized at the 
grassroots level, is funded at $10 million below the level 
authorized in fiscal year 2006, and the $2 million annual 
budget of the National Coalition Institute, run by the 
Community Anti-Drug Coalitions of America, is slashed by more 
than half.
    And one of the sad things about this, Mr. Chairman, these 
are the programs that we have so many people volunteering and 
giving their blood, sweat, and tears to make work, and it is 
probably one of the best investments that we can make because 
not only do we get more bang for our buck, that is, that you 
have a lot of unpaid people who we are helping to rid their own 
communities of drugs and deal with prevention, but it also 
makes them partners with the Government to do this.
    So they become extremely sensitized to all of the problems, 
and then the more they become sensitized and the more they 
learn, then they can spread that word to other communities and 
perhaps help them address the problem. So it is a wonderful 
deal for our budget and our efforts.
    The budget further proposes to eliminate the Drug 
Enforcement Administration's Demand Reduction Program and to 
cut funding for drug prevention efforts by the National Guard.
    Under the President's budget, the Center for Substance 
Abuse Prevention within SAMHSA would receive $15 million less 
in fiscal year 2005. And I will be very interested to hear from 
Mr. Curie with regard to how that will affect his efforts.
    The National Youth Anti-Drug Media Campaign, the 
Government's primary means of disseminating messages that 
discourage teen drug use, would receive $120 million, an amount 
equal to the figure appropriated in fiscal year 2005, but some 
$60 million below the amount originally authorized for the 
program in 1998. Mr. Chairman, if we want an effective anti-
drug media campaign, one that stands a chance of competing with 
the countervailing messages that are pervasive in today's media 
environment, we have to fund it at a level that will enable it 
to have the reach and frequency required for it to have maximum 
impact.
    The President in 2002 announced a goal of reducing both 
youth and adult drug use by 10 percent over 5 years and by 25 
percent over 10 years. We all support those objectives. The 
2005 National Drug Control Strategy states that the President's 
5-year goal for youth drug use has not only been met, but that 
it has been exceeded, and that is encouraging news.
    But I am concerned, Mr. Chairman, that the same Monitoring 
the Future survey that shows a reduction in the use of any 
illicit drugs among 8th, 10th, and 12th graders also shows 
worrisome trends in the use of cocaine and heroin by youth in 
the same age groups, as well as among young adults. Thus, while 
a sharp drop in reported teen use of marijuana enables the 
administration to claim victory in meeting the President's 5-
year goal for reducing overall drug use among youth, it is 
clear that we must do more, not less, to ensure that we are 
reducing the use of all dangerous drugs among both youth and 
adults.
    Mr. Chairman, we are all aware of the administration's 
budget priorities at the beginning of the President's second 
term of office are informed by fiscal constraints relating to 
homeland security, the war in Iraq, and other economic factors. 
But the obvious erosion of emphasis on demand reduction, and 
prevention in particular, cannot be explained by extraneous 
factors when the overall drug control budget is being 
increased. Moreover, the justifications that the administration 
offers for cutting or eliminating some programs while boosting 
funding for others simply do not appear to hold water.
    ONDCP, in the President's 2005 National Drug Control 
Strategy, attempts to make the case that severe cuts to 
programs like Safe and Drug-Free Schools are based on the 
failure of these programs to demonstrate effectiveness under 
the administration's Program Assessment Rating Tool [PART]. But 
a recent analysis by former ONDCP staffer John Carnevale shows 
that at least half of the Federal drug budget is exempt from 
PART review and further concludes that PART was not central to 
shaping the Federal drug control budget.
    I am almost finished, Mr. Chairman.
    The President and the Office of the National Drug Control 
Policy are ultimately responsible for the shape of the Federal 
drug control budget. ONDCP has explicit statutory authority to 
review and certify the drug control budgets of agencies 
throughout the Government and formulates the President's 
National Drug Control Strategy. Congress placed that authority 
in the Executive Office of the President to ensure that the 
Federal budget provides adequate support for all the Nation's 
drug control priorities, with the ultimate aim of reducing drug 
use.
    The clear shift of priorities in the proposed budget for 
the coming fiscal year raises serious questions about how ONDCP 
is utilizing its statutory authority.
    And again, for all of those reasons, Mr. Chairman, I am 
disappointed that John Walters is not with us. But I do thank 
all of our other partners who are here, and I want to say to 
you, if I don't get a chance to say it in the future, I want to 
thank all of you for doing what you do everyday to make a 
difference in our country with regard to drugs, because you may 
not realize it now, but you are affecting generations yet 
unborn in a very, very positive way, and we do appreciate you.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T3687.004

[GRAPHIC] [TIFF OMITTED] T3687.005

[GRAPHIC] [TIFF OMITTED] T3687.006

[GRAPHIC] [TIFF OMITTED] T3687.007

[GRAPHIC] [TIFF OMITTED] T3687.008

[GRAPHIC] [TIFF OMITTED] T3687.009

[GRAPHIC] [TIFF OMITTED] T3687.010

[GRAPHIC] [TIFF OMITTED] T3687.011

[GRAPHIC] [TIFF OMITTED] T3687.012

[GRAPHIC] [TIFF OMITTED] T3687.013

[GRAPHIC] [TIFF OMITTED] T3687.014

[GRAPHIC] [TIFF OMITTED] T3687.015

[GRAPHIC] [TIFF OMITTED] T3687.016

[GRAPHIC] [TIFF OMITTED] T3687.017

    Mr. Souder. Thank you.
    Before proceeding, I would like to take care of a couple 
procedural matters. First, ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record; that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, so ordered.
    I also ask unanimous consent to insert a statement from 
Congressman John Peterson on the drug control budget, a member 
of the Appropriations Committee, and also from the First Lady 
of Ohio, Hope Taft, a statement on the drug prevention 
programs. Hearing no objection, so ordered.
    [The prepared statements of Mr. Peterson and Ms. Taft 
follow:]

[GRAPHIC] [TIFF OMITTED] T3687.018

[GRAPHIC] [TIFF OMITTED] T3687.019

[GRAPHIC] [TIFF OMITTED] T3687.020

[GRAPHIC] [TIFF OMITTED] T3687.021

[GRAPHIC] [TIFF OMITTED] T3687.022

[GRAPHIC] [TIFF OMITTED] T3687.023

[GRAPHIC] [TIFF OMITTED] T3687.024

[GRAPHIC] [TIFF OMITTED] T3687.025

[GRAPHIC] [TIFF OMITTED] T3687.026

[GRAPHIC] [TIFF OMITTED] T3687.027

[GRAPHIC] [TIFF OMITTED] T3687.028

[GRAPHIC] [TIFF OMITTED] T3687.029

[GRAPHIC] [TIFF OMITTED] T3687.030

[GRAPHIC] [TIFF OMITTED] T3687.031

    Mr. Souder. Our first panel is composed of the Honorable 
Charles Curie, Administrator, Substance Abuse and Mental Health 
Services Administration, Department of Health and Human 
Services and Oversight Committee.
    It is our standard practice to ask all our witnesses to 
testify under oath, so if you will stand and raise your right 
hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that Mr. Curie responded in 
the affirmative.
    We look forward to your testimony, and you are recognized 
for 5 minutes.

STATEMENT OF CHARLES CURIE, ADMINISTRATOR, SUBSTANCE ABUSE AND 
 MENTAL HEALTH SERVICES ADMINISTRATION [SAMHSA], DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Curie. Well, thank you, Mr. Chairman, and thank you, 
Congressman Cummings. I especially want to thank you for the 
opportunity to present SAMHSA's role in achieving the 
President's goals for preventing substance abuse and reducing 
addiction.
    Over the past 4 years we have worked hard at SAMHSA to 
align our resources and our vision of ``a life in the community 
for everyone,'' and our mission is to ``build resilience and 
facilitate recovery.'' Stopping drug use before it starts is 
foundational to our success.
    In partnership with other Federal agencies, States and 
local communities, and faith-based organizations, consumers, 
families, and providers, we are working to ensure that every 
American has the opportunity to live, work, learn, and enjoy a 
healthy, productive, and drug-free life.
    Under the leadership of President Bush, we have embarked on 
a strategy that is working. The most recent data confirms that 
we are steadily accomplishing the President's goal to reduce 
teen drug use by 25 percent in 5 years. Now at the 3-year mark, 
we have seen a 17 percent reduction and there are now 600,000 
fewer teens using drugs than there were in 2001.
    This is an indication that our partnerships and the work of 
prevention professionals--schools, parents, teachers, law 
enforcement, religious leaders, anti-drug coalitions--are 
paying off. We know that when we push against the drug problem, 
it recedes; and, fortunately, today we know more about what 
works in prevention, education and treatment than ever before.
    We also know our work is far from over. To provide a 
science-based structured approach to substance abuse 
prevention, SAMHSA has launched the Strategic Prevention 
Framework. The Framework allows States to bring together 
multiple funding streams from multiple sources to create and 
sustain a community-based approach to prevention. People 
working with our youth and young adults understand the need to 
create an approach to prevention that cuts across existing 
programs. I have seen it firsthand.
    I have had the privilege to visit many cutting-edge 
prevention programs, programs that I have been tremendously 
impressed as I have walked away, but time and time again I have 
also been extremely frustrated. I see prevention programs 
scrambling for limited dollars from multiple Federal, State, 
local, public, and private sector funding streams. All have 
specific and sometimes even competing requirements.
    For example, in the Department of Health and Human Services 
alone there is the Health Resources and Services 
Administration, the Center for Disease Control, Administration 
for Children and Families, National Institutes of Health, of 
course, SAMHSA; and then there are the Departments of 
Education, of Justice. And these don't even include State, 
local, and private funding streams. Each alone provides a 
trickling of a funding stream, but leveraged together in the 
right way around a strategy they can produce an ocean of 
change.
    Whether we speak about abstinence or rejecting drugs, 
tobacco, and alcohol, whether we are promoting exercise and a 
healthy diet, preventing violence, or promoting mental health, 
we are really all working toward the same objectives: reducing 
risk factors and promoting protective factors.
    Under the new Strategic Prevention Framework, this grant 
program, participating communities will implement a five-step 
public health process known to promote youth development, 
reduce risk-taking behaviors, build assets and resilience, and 
prevent problem behaviors. The steps include, first, a 
community assesses its substance abuse related problems, 
including magnitude, location, associated risks and protective 
factors. Communities also assess service gaps in readiness, and 
they examine all available funding, putting all the dollars on 
the table.
    Second, communities must engage key stakeholders, build 
coalitions, organize and train and leverage prevention 
resources. Third, communities establish a plan for organizing 
and implementing prevention resources. The plan must be based 
on documented needs, build on identified resources, set 
baselines, objectives, and performance measures. And, fourth, 
communities implement evidence-based prevention efforts 
specifically designed to reduce those identified risk factors 
and promote identified protective factors. In other words, have 
a tailored approach for that community. Finally, communities 
will monitor and report outcomes to assess program 
effectiveness and service delivery quality, and to determine if 
objectives are being attained or if there is a need for 
correction.
    The success of the Strategic Prevention Framework will then 
be measured by specific national outcomes. And I know at a 
previous hearing we had a focus on those outcomes, and they 
include: abstinence from drug use and alcohol abuse, reduction 
in substance abuse-related crime, attainment of employment or 
enrollment in school, increased stability in family and living 
conditions, and increase social connectedness. These measures 
are true measures of whether our programs are helping young 
people and adults achieve our vision of a life in the 
community.
    I firmly believe that by focusing our Nation's attention, 
energy, and resources, we can continue to make progress. We 
also recognize that the most important work to prevent 
substance abuse is done in America's living rooms and 
classrooms, in churches and synagogs, in the workplace and in 
our neighborhoods. Families, schools, communities, and faith-
based organizations shape the character of young people; they 
teach children right from wrong, respect for the law, respect 
for others, and, most importantly, respect for themselves. They 
are indispensable, and we stand ready to assist them in every 
possible way.
    Thank you for the opportunity to discuss the Framework and 
taking an interest in this new and innovative approach to 
preventing substance abuse. Mr. Chairman, Congressman Cummings, 
thank you for the opportunity to appear today. I look forward 
to continuing to work with you in partnership toward a healthy, 
drug-free America, and I would be very pleased to answer any 
questions or engage in discussion with the committee. Thank 
you.
    [The prepared statement of Mr. Curie follows:]

    [GRAPHIC] [TIFF OMITTED] T3687.032
    
    [GRAPHIC] [TIFF OMITTED] T3687.033
    
    [GRAPHIC] [TIFF OMITTED] T3687.034
    
    [GRAPHIC] [TIFF OMITTED] T3687.035
    
    [GRAPHIC] [TIFF OMITTED] T3687.036
    
    [GRAPHIC] [TIFF OMITTED] T3687.037
    
    [GRAPHIC] [TIFF OMITTED] T3687.038
    
    Mr. Souder. Thank you very much. Let me first thank you for 
your work in the areas of treatment. We have had multiple 
hearings on treatment and, of course, that is one of the major 
components. In many ways what is difficult about today's 
hearing is we are trying to prevent things that then often the 
Government has to deal with if we fail to prevent, whether that 
be treatment, whether that be interdicting, eradicating, 
throwing people in jail, trying to deal with the drug problems 
in jail. And the big question we get a lot of times is how are 
you focused on treatment and what are you doing.
    So let me ask, because that is not the primary 
responsibility of your agency, but the ONDCP budget summary 
said that they viewed your program, the Substance Abuse 
Prevention Treatment, as about 20 percent prevention and about 
80 percent treatment. Is that a rule or just an estimate, or 
how do you work through a number like that?
    Mr. Curie. I think what they are referring to is the block 
grant, and the intent of the block grant in statute is 80 
percent of the block grant dollars, which is approximately $1.8 
billion, is to be geared toward the treatment system. And I 
describe that 80 percent as really the foundation of the public 
substance abuse treatment system in this country, because other 
public funding streams such as Medicaid and Medicare are a 
very, very small portion as compared to other types of 
illnesses and disorders.
    So with SAMHSA's block grant, with our discretionary 
program of funds, Access to Recovery, as well as with the State 
match that is required in terms of the maintenance of effort, 
that basically comprises the major part of the treatment system 
in this country. Twenty percent of the block grants--we work in 
partnership with State drug and alcohol authorities in 
monitoring this process--are to go toward prevention 
activities. Then we have the discretionary budget within CSAP, 
where, again, the Strategic Prevention Framework is funded, so 
we have the dollars in the CSAP budget that also go toward 
prevention, which are approximately $190 million, in that 
vicinity, $200 million.
    Mr. Souder. So you are saying that was by statute it is 80/
20.
    Mr. Curie. I believe it is required in the block grant. We 
can double-check that, but I believe that is where it is coming 
from, yes.
    Mr. Souder. And how do you view yourself in the sense of 
obviously you have more dollars in treatment, but, in fact, if 
the administration were successful in wiping out Safe and Drug-
free Schools, other than the small national program, you are 
the biggest prevention player on the block then.
    Mr. Curie. I think that may be right. I would have to 
double-check all those figures.
    Mr. Souder. Because if you take your $190 plus one-fifth of 
$1.8 billion, you are close to double anything else.
    Let me ask another question, because one of the 
frustrations that I see as a Congressman and I saw as a 
staffer, we have so many different programs, for example, we 
have who knows how many programs that, say they are reducing 
low birth weight. Now the current trend is gangs, so all these 
programs are going to run to the gangs question. Recently ONDCP 
apparently acknowledged that they suspended regular meetings of 
the Demand Reduction Working Group. Were you or any of your 
deputies part of the Demand Reduction Working Group that is 
supposed to be of the different agencies at work?
    Mr. Curie. There have been some meetings over the past 4 
years. I participated in some of those meetings or sent 
representatives over the course, especially during the first 
term. I can recall I attended personally at least two or three 
of those meetings.
    Mr. Souder. Do you feel they were useful?
    Mr. Curie. I feel they were useful from the perspective of 
sharing what we were all doing, as well as it gave ONDCP the 
opportunity to share overall directions. What I found most 
useful has been the ongoing dialog we have with ONDCP on a 
pretty regular basis. It is more informal, but staff at various 
levels of SAMHSA, including myself, having contact with ONDCP 
has been occurring.
    Mr. Souder. But nobody has ever come in and said, boy, we 
are spending nearly $1 billion here on drug prevention, we 
ought to have a coordinated drug prevention strategy? In other 
words, you are saying it is useful to kind of swap notes, but 
when you are pouring $360 million into the States, roughly a 
fifth of $1.8 billion, the Safe and Drug-Free Schools is 
pouring similar amounts in; you have another $190 million in, 
they have some under the CTAC program; we used to have it in 
Housing, which is now more optional in the Housing for various 
types of activities, but can include drugs. Is anybody looking 
and saying, boy, we have all this money going every which 
direction. Rather than just saying that it is not working, 
maybe we ought to figure out how to make it work. Instead, we 
suspended the meetings, the little meeting that we did have. I 
don't understand.
    Mr. Curie. Well, again, I might be biased, but I clearly 
think that is what SAMHSA is doing with HHS and working with 
partnership with ONDCP and the other Federal agencies through 
Strategic Prevention Framework. I couldn't agree with you more 
in terms of the dynamic you describe, and ONDCP has been 
extremely supportive of us pursuing SPF. I think our prevention 
efforts, while there has been money out there at a lot of 
levels--and, again, I know you are talking about some 
reductions today. My concern has been we haven't had a handle 
from the local community, the State level, or the national 
level totally in terms of how many prevention programs are 
really being funded and looking at it from a systemic level.
    With Strategic Prevention Framework and working with the 
States and communities, as I indicated, one of the first steps 
is each community being empowered to put all their dollars on 
the table, what they are receiving, and then embark on a 
process of assessing the risks that are in that community that 
contribute to the substance abuse problem in that community, as 
well as the protective factors, and then from that have a 
baseline of use and then begin to embark upon a plan to fund, 
in a leveraged way and an augmenting way and a coordinated way, 
in the community the evidence-based programs that address those 
risk factors and for the first time have a real science base as 
well as a framework which empowers entities at all levels. And 
as I mentioned in my remarks, youth development agencies, 
faith-based organizations, the school systems needing to be 
very much a part of that process, local law enforcement, all 
the entities that touch youths lives in a youth development 
sort of way. And the anti-drug coalitions are, of course, 
critical to that process as well, and we want to buildupon what 
is already there.
    So I couldn't agree with you more that we need to be 
pressing a systemic look at prevention, how we are leveraging 
it, and, most importantly, how we are empowering local 
communities to leverage the resources they have. I have been 
pleased with the enthusiasm and discussions I have had with 
Justice, Education, as well as my fellow other operating 
divisions in HHS around Strategic Prevention Framework, seeing 
how their programs can fit into that.
    The other thing, we are trying to make Strategic Prevention 
Framework not another prevention program that is competing for 
more dollars, but to be the framework to really help leverage 
the dollars from other programs. And we think that is the most 
important thing we can do in leadership right now.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you again for being here. I just want 
to go back to something that you said. You talked about 
reducing the risk factors. Talk about that a little bit more.
    Mr. Curie. What we want to do and what you need to do in a 
community is take a look at what are the types of potential 
risk factors that exist. For example, a community that has a 
lot of mobility in it, that there is not a real stable 
neighborhood in that community, taking a look at identifying 
how do you address that risk factor through bringing some 
stability around a sense of neighborhood. How do you address 
that? Is there a focus on strengthening family relationships, 
the parent-child relationship, does the community do anything 
about looking at that? How active are the children in 
extracurricular activities and how active is the school system 
in engaging that community? Again, that can either be a risk or 
protective factor depending on what level you find. And there 
is a way of identifying, there is a range and a way, and we can 
show you risk factors that have been identified scientifically, 
that can be identified in a community.
    And then protective factors that already do exist in 
communities, how do you strengthen those protective factors. A 
community that has a real strong sense of community, a real 
sense of its neighborhood and where the institutions are 
connected together. That is a protective factor in and of 
itself. There are ways you can promote those protective 
factors.
    Also, with our national registry of effective programs, we 
have 65 evidence-based programs that have been demonstrated 
through a scientific review to reduce substance abuse 25 
percent or less. We want that to be a resource with Strategic 
Prevention Framework that communities could select those 
programs that would best meet the needs that community has 
based on the risk factors identified.
    So there would be a real tailored approach based on the 
unique needs of that community.
    Mr. Cummings. Going back to those 65 programs, these, I 
guess, would be considered best practices for certain 
circumstances, is that accurate?
    Mr. Curie. Yes. It depends how you use the terms. I think 
they would be better than best practices, actually, in terms of 
being evidence-based. So they actually have an evidence base to 
them that they have demonstrated that they have lowered 
substance abuse use in communities.
    Mr. Cummings. I don't know whether you were listening to me 
when I was going over my opening statement.
    Mr. Curie. I was.
    Mr. Cummings. Right answer. Thought I would catch you 
sleeping.
    But you know the thing that I think Congressman Souder and 
I, and I think many Members of Congress, will attest to, is 
that when we go from neighborhood to neighborhood and we talk 
to our constituents, there are so many people that want to do 
something, but they don't know what to do and they don't know 
how to do it. So that is why I am so big on this community 
stuff, because I cannot imagine--I mean, if you can take some 
people who are already committed to do something, I mean, you 
think about all the competing tasks that we have as a parent, 
our job and all that, and these people say, look, I want to 
help. And a lot of times in some of our communities these are 
people who don't even have children or their children are gone 
on and they are professionals or whatever, but they still want 
to help. So I am just trying to make sure that as we deal with 
our budget priorities, that we are not only reducing money to 
go to those kind of efforts. So, for example, you say $10 
million. When it comes to manpower and all the volunteer hours 
and the product--because I really believe that if somebody is 
willing to go out there and volunteer, they may very well work 
harder, maybe not as many hours, but harder than somebody who 
is getting paid, and they have that sense of community.
    There is a guy in my neighborhood and he is a very 
interesting fellow. Every Saturday and Thursday and Tuesday he 
goes around and he picks up all the trash. He does a great job 
for free. And I look at him sometimes and I say, you know--then 
I go to the other neighborhoods where they have people cleaning 
up, and he does a better job. But it is because it is coming 
from somewhere in here.
    I just don't want us to be in a position where we spend so 
much time trying to pinch pennies and then leave communities 
out, and then cause their morale--first of all, cause them to 
say, OK, well, I guess there is nothing I can do, because that 
is one of the easiest things for us to do, say there is nothing 
I can do, and keep getting up, because we have all these other 
things to do. So we lose that and we lose the product that they 
would produce, and the prevention and all that kind of stuff. 
We used to talk a lot about volunteerism and all this, and I 
have to tell you in some kind of way we have to make sure we 
use that here, because if we don't we have lost an incredible 
resource.
    Mr. Curie. I couldn't agree with you more. In fact, what 
you have just described is exactly what I think Strategic 
Prevention Framework can help empower community. One of the 
things we envision is that a community actually brings its full 
leadership, and we are talking from the faith community, the 
school district again, city government, chamber of commerce, 
law enforcement, all the youth development agencies, United 
way, the anti-drug coalitions that are already in these 
communities set up. Come to the table and, first of all, get a 
sense of community; take a look at the resources. And the goal 
of Strategic Prevention Framework long-term, in my mind, is not 
only to better use the dollars we have--and I get real worried 
that prevention is vulnerable all the time anyway. Prevention 
is vulnerable because historically it has been hard to measure. 
Prevention is vulnerable because it is hard to understand and 
you can actually understand treatment a little more.
    Now, I advocate continuing to keep treatment services 
funded as well because we want to help the people who are 
drowning in the river. But we also can make the most impact by 
preventing people from getting in that river in the first 
place. And with Strategic Prevention Framework, I am convinced 
if a community knew how much they had in terms of prevention 
resources and they were willing--and this is also to help give 
incentives to doing away with the turf that can occur in the 
communities. And if a community can have a clear point of 
contact around a prevention framework, then those individuals 
you just described, who have a desire to be of service, or they 
are at a point in their life where perhaps their family has 
grown and they really want to be invested in the community, 
that they would know where to turn, because that community 
would have a plan, a strategy; they would know where to go for 
the resources and they would know where to volunteer.
    So it gives an opportunity for a community to truly empower 
people at all those levels, and that is why I feel this is a 
rather profound approach, trying to do it at a systemic level, 
and I think it is an appropriate level for the Federal 
Government to be really working with States and communities to 
empower them to do this, because I think it is hard to just do 
that on your own.
    Mr. Cummings. You know, last but not least, General Dean 
and others had some folks come to Baltimore, and I just found 
it so amazing that these people came to Baltimore and they met 
with people who were neighborhood people who were struggling. 
They came because they had good experiences in their 
neighborhoods and they had discovered their power. So they came 
to Baltimore and presented their--these are regular, everyday 
people. I mean, it was so powerful. I sat there and I was just 
like amazed that you could have one group that had figured it 
out, and they looked just like the people they were talking to, 
similar circumstances, and they flew in and they were like 
superstars, you know, superstars of prevention. And my folks 
looked at them and said, wow, you know, and they got ideas and 
they were empowered by seeing people who looked like them, who 
came from neighborhoods like theirs, who had effectively 
addressed a drug problem in their neighborhood, and they were 
able to say, hey, you know, we can do that too. So it became 
contagious. That is the other piece.
    And I am a big person on treatment, but I tell you, Mr. 
Curie, as much as I am a big proponent of treatment, I tell 
you, I hate for people to have to go through the process to 
have to have treatment.
    Mr. Curie. Absolutely.
    Mr. Cummings. Because I see the destruction. I really do. I 
live in a neighborhood--well, it has gotten better now, but I 
live in a neighborhood where, if you bought your house in 1982 
for $100,000, when crack cocaine came around, you could have 
put $100,000 into that $100,000 house and you couldn't sell it 
for $35,000 period. And that happens to neighborhoods. So the 
wealth goes down, families are destroyed.
    So all I am saying to you is when you have your 
discussions, I hope that you will take back that message, since 
you already believe in it, because there are so many people who 
are out here, and I don't want them to be discouraged. I really 
don't. I think that is one of the worst things that we can do. 
That is our army. It is like telling your military we are not 
going to support you, go home, see you later, and let us give 
us. And I think that is one of the most crucial messages that 
we have to get to the folks that make these decisions.
    Mr. Souder. Thank you.
    I had a detailed question that is off the budget. I guess 
this is more on ONDCP, but let me see if I can communicate this 
clearly enough. If not, we can get it a written response.
    In your budget, the President's budget you have a reduction 
of $15 million in prevention programs and you have an increase 
of about $23 million in treatment. It appears that almost all 
the $15 million reduction is in ``programs of regional and 
national significance.'' That is by looking at the breakout of 
the budget as to where that occurred. Yet, later on in the 
report it says that SAMHSA will be able to expand the Strategic 
Prevention Framework, which is what you have been talking about 
today, with five new grants, for a total of $12\1/2\ million.
    If the program is going down 15, but you are increasing 
that 12\1/2\, what is the money coming out of?
    Mr. Curie. I am glad you asked that question. First of all, 
as you all know, because you are dealing with it, it is very 
challenging budget times all the way around, so overall there 
is a 1\1/2\ percent reduction in the SAMHSA budget overall. And 
I will be testifying tomorrow before the Subcommittee on 
Appropriations about the overall budget. So we had some very 
tough decisions to make in terms of prioritizing where we 
needed to put dollars, to mitigate some of the issues that we 
are facing, we developed some key rules of thumb as we made 
some budget decisions. First of all, we generally looked at 
grants and contracts that were coming to an end, and in those 
$15 million that you have discussed in the Center for Substance 
Abuse Prevention, it is primarily either programs that were 
coming to their natural conclusion; second, some of them were 
earmarks that were coming to their natural conclusion as well; 
and, third, we were able to gain efficiencies by combining 
contracts, our clearinghouse efforts and some other contracts. 
And our director of CSAP, Beverly Watts Davis, worked to try to 
gain some efficiencies through those contracts. So that is all 
reflected in that $15 million.
    Now, the additional dollars for Strategic Prevention 
Framework is over the past 2 years we have been making a 
decision to try to use some of the dollars that are not 
continuing in grants that they were in, using our existing 
budget as much as we can to shift toward Strategic Prevention 
Framework, because, again, we felt that was also an appropriate 
focus for CSAP, as the lead Federal agency around substance 
abuse prevention, to set the stage for a framework for other 
prevention programs that are being funded by other Federal 
agencies, as well as State, local, and private sector 
organizations.
    So those three dynamics were in play as we evaluated where 
we needed to make some reductions. We tried to mitigate it as 
much as possible and at the same time make decisions.
    One thing I haven't mentioned today is the SAMHSA matrix, 
which is unusual for me, but on the matrix we have those 
priorities outlined, Strategic Prevent Framework is one of 
them, and that has been guiding us even in the better budget 
years. It especially became useful in the tougher budget years, 
when you had to make some tougher decisions to keep our eye on 
the ball, so to speak, to fulfill our mission based on what we 
have set in stage over the past 3 to 4 years.
    Mr. Souder. I thank you. We may have some more written 
questions. I may come back, but I want to do something else 
first. Do you have another question for him?
    Mr. Cummings. Let me make sure I understand what you just 
said. You are saying that your staff was able to look at--is it 
mainly duplication?
    Mr. Curie. It can be duplication of management efforts, and 
when you can consolidate contracts and grants, you do eliminate 
and gain some overhead efficiencies.
    Mr. Cummings. And the ones that were coming to an end, are 
we missing out on something now? In other words, I assume those 
are things, some of which, folks would have wanted to renew, is 
that accurate?
    Mr. Curie. Well, I would imagine some of the people that 
were receiving the grants may have wanted to have an 
opportunity to renew some, but it has not been unusual for a 3-
year grant cycle to end, and the grantee knows it is going to 
come to an end. So, again, I think decisions were made trying 
to keep that in mind, as well as we did make a clear decision, 
a conscious decision over the past 2 to 3 years to try and move 
our dollars as much as we can into funding the Framework, 
because we felt ultimately those dollars will serve communities 
better by leveraging all the other dollars than just going into 
individual programs, because this way we can truly bring some 
things to scale on more of a national level.
    Mr. Cummings. Do you have more control when you put them in 
the Framework also?
    Mr. Curie. I believe we do.
    Mr. Cummings. More accountability too?
    Mr. Curie. Well, with the outcome measures, I am confident 
we are going to have more accountability. And, again, the 
outcome measures are going to be consistent outcome measures 
that we are utilizing with all of our grants, but most 
importantly coming from all communities and States. So for the 
first time we hopefully will be able to paint a national 
portrait, if you will, of really what these dollars are 
impacting and affecting. And then my goal is not only to 
continue to see substance abuse use go down, but to be in a 
position where I can come to you or I can talk to, within the 
executive branch, OMB and our budget folks and be able to 
demonstrate that the dollars were used the best way possible 
and any new dollars can go into these evidence-based efforts 
that you can have confidence they are going to be used wisely. 
And I think that has been one of the challenges that the 
prevention community has been up against for many years.
    Mr. Cummings. Well, as I listened to the President's State 
of the Union, he was talking about programs in general, and he 
said that they were duplicating and that he needed to get rid 
of some programs. And after I began to look at some of the 
programs--and I am not talking about your agency, I am talking 
about in general--some of them were not things that were 
duplicated. One could make the argument as to whether they fit 
in the priority list of the President, but duplication was not 
the right word for all of them, and I guess what I was trying 
to get at is what it sounds like you all did.
    Congressman Souder has heard me say it 50 million times. If 
there is one thing that Democrats and Republicans agree on, it 
is that their tax dollars be spent in an effective and 
efficient manner, and that sounds like what you are talking 
about. I guess what I want to make sure, though, is that when 
we move toward effectiveness and efficiency, it is true 
effectiveness and efficiency, and not perhaps leaving out 
something or some things that although they may have gone under 
discretionary--would that be the right category?
    Mr. Curie. Programs of regional and national significance.
    Mr. Cummings. Right. I just want to make sure--and even 
some of them I would guess were probably good things.
    Mr. Curie I think everything we have funded have been good 
things.
    Mr. Cummings. OK.
    Mr. Curie. Historically. I mean, I think they are always 
well intended. Again, if we see that there is a program that 
isn't achieving the outcomes, we first of all try to provide 
technical assistance to help them, but over time if they don't 
``meet muster'' that is our responsibility, to do the 
appropriate review and monitoring of that. But I think every 
program that generally gets funded, the intention is always 
good and it is addressing a need.
    Mr. Cummings. All right, thanks.
    Mr. Souder. I think to make this a little easier, because I 
think for the record what we ought to have--basically it is $27 
million, it is not a small amount, because you have a $15 
million reduction and $12 increase, so it is a $27 million 
switch. It would be helpful if you could provide for us a 
list--I will talk to Mr. Regula, too, because I think the 
Appropriations Committee should have that too, because it may 
be we are in complete agreement, but I suspect, given your own 
report, very minimal of that was ineffective programs. I think 
you only had a small percentage of programs that were deemed 
ineffective. He used the magical word, which was another way of 
saying part of what is happening here is the administration 
makes its request on what it thinks is important, but he used 
the word earmarks in here. So we probably have a pretty good 
chunk of this $27 million being earmarks, of which there will 
always be earmarks.
    So the question is then what happens to the drug budget. 
And partly what happens here is when the administration comes 
up with a budget and it isn't really a comprehensive budget 
that calculates in what is going to happen in Congress, we 
freelance. And instead of having a drug prevention budget, our 
guys start to add things on the Hill because it wasn't thought 
that, oh, my lands, you mean they might add something in 
Congress? Of course they might add something in Congress, since 
they do every year in every single program. And then we have to 
go back and say we are short $27 million. So what does it come 
out of? And, defacto, Congress winds up setting up a drug 
policy program that is not necessarily well developed because 
it hasn't been reflected in a realistic appropriations 
question.
    Now, this isn't directed at you. It is a little, but you 
are asked to come up with what you think you would do in your 
agency, and what I am saying is that, strategically, when OMB 
clears what comes up, they also have to think a little bit of 
what is realistically going to happen on the Hill. And I think 
a listing of these projects will give us some indication of 
what is happening, because we are likely to get earmarks back. 
If half of that $27 million is earmarks, we are likely to get 
that same amount again. Therefore, you are going to be $13 
million short. And then we come back to our question that we 
asked, which you don't have an answer yet today because you 
don't know what the number is going to be. But that money is 
going to come from somewhere, or there is going to have to be a 
budget increase, and the question is what type of programs are 
we giving up even when we do an earmark, because if we don't 
have a realistic budget match-up, it is hard to figure out what 
tradeoffs we are making when we do an earmark, when we do 
different things in Congress; and it is a systemic problem, it 
is not new this year.
    But in my opinion, with all due respect, this year's 
budget, of which yours are minor changes, but compared to 
wiping out Drug-Free Schools and then moving the money over, 
when you move figures like $360 million, as opposed to $15, or 
try to wipe out most of the HIDTA program or knock out all the 
Burn grant, the overall drug budget is so unrealistic and so 
uncoordinated coming out of the administration this year it is 
irrelevant. And what it is forcing Congress to do between the 
House and Senate is put together for the first time--really, 
working with the Senate you are getting more cooperation in 
Congress, because what do we do when the administration chooses 
not to lead? In drug treatment that has not been a problem, but 
in drug prevention we have no coordinated leadership strategy. 
We have no leadership strategy whatsoever. You are the only one 
who is willing to even talk about it. I wouldn't want to talk 
about it if I were the other agencies either. They don't have a 
strategy. Department of Education is getting zeroed out. ONDCP 
didn't like it last time that we said, how come you are gutting 
the drug czar's office? It is basically a repeat of Bill 
Clinton's administration, watching the drug czar's office get 
gutted, and it is embarrassing to come up to the Hill and face 
that.
    Now, I have some questions I am going to put on the record, 
because it should never be said that skipping a hearing is 
easier than being at a hearing. So I have some questions that I 
am going to ask publicly that I want written responses to, and 
I will continue to work with the Appropriations Committee, 
that, by the way, is equally appalled. These are questions I 
would have asked ONDCP and the Department of Education had they 
been here and been willing to defend their budgets, as Mr. 
Curie has been.
    No. 1, since Director Walters became head of ONDCP in 2001, 
the administration has identified drug use prevention as one of 
the critical three pillars of the effective drug control. The 
percent of Federal funding proposed in the administration's 
budget for prevention, however, has dropped to only 13 percent 
of the total drug control budget. Why is this pillar so much 
shorter than the other pillars?
    Two, if the Safe and Drug-Free Schools State Grants cannot 
demonstrate results by OMB's reckoning, why didn't the 
administration, at any time in the last 4 years, propose 
reforming the grants to make them more accountable and 
effective?
    Three, if the administration has lost confidence in the 
Safe and Drug-Free Schools State Grants, but is prepared to 
boost the funding for Safe and Drug-Free Schools' national 
program grants, then why didn't the administration propose 
moving all of the funding for the State Grants to the national 
programs instead of only a portion?
    Four, the administration has proposed level funding for the 
National Youth Anti-Drug Media Campaign and the Drug-Free 
Communities Support Program. Given inflation, this amounts to a 
reduction in total resources for both programs. Why didn't the 
administration at least propose an increase to keep pace with 
inflation?
    Five, why did ONDCP suspend the regular meetings of the 
Demand Reduction Working Group, which used to bring together 
senior political appointees from the Federal agencies involved 
in drug control?
    Six, does the administration believe that student drug 
testing alone, unaccompanied by education or other prevention 
programs, will be effective? If not, what kind of programs need 
to accompany the testing?
    Now, remember, when I was a staffer in the Senate for 
Senator Coats, I wrote the first drug testing provision, and it 
was based off of a high school in Indiana, McCutchen High 
School, where they had a problem on their baseball team, and we 
allowed testing through Drug-Free Schools program for the first 
time. We also worked with then Senator Danforth in the 
Transportation drug testing, which were the first two drug 
testing programs in 1989 and 1990, and I was a staffer, I was a 
legislative director and we had a number of other staffers on 
it that worked with this. I am enthusiastic of drug testing, 
but drug testing alone does not solve the problems. Drug 
testing is a monitor of the effectiveness of programs and of 
treatment programs, it is not a prevention program, it is a 
supplemental prevention program.
    Seven, what changes to the law authorizing the Media 
Campaign would ONDCP like to request from Congress? What should 
the role of the Partnership for Drug-Free America and other 
non-government organizations be?
    And since they have chosen not to be here, we are going 
ahead and writing a bill without them. And we would like at 
least some written input, but it is a very frustrating process.
    Now, let me make one other statement for the record. I find 
it extraordinary that everybody from the administration comes 
up and says how we are winning the war on drugs. But then they 
want to wipe out the prevention part, and the local law 
enforcement part, as we heard in an earlier hearing. If we are 
winning, why would you gut the prevention leg strategy for more 
or less, or at least take about 50 percent of it out, and why 
would you take out the section on the Burn grants, which are 
the local drug task forces, and the HIDTA funding, not to 
mention most of CTAC, if your drug program is working? 
Furthermore, as we learned, which is why they didn't want to 
come forth, there are no studies that suggest that the HIDTA 
program is a problem; there may be opinions. There are no 
studies that suggest that the Burn grants weren't part of the 
reduction. There are no studies that prove that Safe and Drug-
Free Schools--there is one GAO report that was 5 years ago. 
Give me a break. And, furthermore, no suggestions of what the 
alternatives will be.
    And when they said they were going to transfer the crime 
programs over to OCDEF, they had no proposal on the table, they 
had no idea of what management plan there would be. Even though 
they couldn't name a single HIDTA that wasn't working, they 
couldn't name an alternative for what was going to substitute 
for the HIDTA, because they had given no thought, no test, no 
proposal to test, and it was supposed to be, take this, blind 
Congress. Now we come to prevention programs and we have the 
same thing. They don't even want to talk about it. They don't 
even want to come up and explain Safe and Drug-Free Schools. 
There have been no proposals with it; they are presenting no 
evidence that Safe and Drug-Free Schools don't work, yet it 
gets a big zero.
    Then when we get to the other kind of general prevention 
strategy, the fact is we aren't having coordinated meetings. 
The director is meeting with Mr. Curie and says that he 
believes his program is working. You have some of the biggest 
programs. But we all know we have a huge coordination problem 
at the local level and that this can't be done one-on-one, OK, 
we are going to work on this group over here and this group 
over here. We have to have a national prevention strategy, 
which can only be done by getting the principal players 
together and talking about it, starting with the President, a 
national prevention strategy.
    I just see a little bit, and this is one of my biggest 
concerns, and I believe that your Strategic Prevention 
Framework is a good idea, but we, as conservative Republicans, 
are drifting to a very dangerous philosophy, and this budget is 
the clearest example I have seen of it. I have believed from 
the beginning--I am not a Libertarian. I believe we have a 
Constitution, not the Articles of Confederation. I believe it 
is important to have national programs. But I believe we 
believe in local and State flexibility, and what we saw in the 
local law enforcement hearing was an attempt to nationalize law 
enforcement and say, instead of having a 50/50 vote on HIDTA's, 
we are going to give it to OCDETF, where the Federal Government 
can force them to do what these stupid people don't know how to 
do themselves. And by taking the Burn grants, they are saying, 
look at this local cops' money. Even though they do 90 percent 
of the arrests, we think the Federal Government should set drug 
arrest strategy.
    Now we come to prevention programs. It appears that the 
underlying reason why they don't like Safe and Drug-Free 
Schools is it goes to the schools to determine the strategy, 
which, quite frankly, if you get $600, it is tough at a given 
school to come up with a strategy. So as we work through this 
program, we need to figure out how to make it more effective. 
But the solution then is to zero it out and only keep the 
portion that is national, in other words, the portion that 
Washington can say this is what we need to do, and Washington 
is going to review and say this is how you should do programs 
on national significance.
    Now, in the Strategic Prevention Framework, the same thing 
has to be, it has to be a true partnership. It doesn't have to 
be the thousand pound gorilla telling these dumb yokels at the 
local level what they need to know. The science can't be rigged 
to throw out what is important, and that is sometimes, you 
know, the passion of the individual at the local community 
overcomes some of what is pure science here, because by getting 
people who are very passionate, like you said, it is one at the 
dinner table. And in prevention it is going to be a lot of the 
one at the dinner table in the community, and it is messy and 
it is hard. It is much easier to sit in the Washington office 
and say this is what we think the prevention strategy ought to 
be; this is what we think, we ought to go for these big crime 
people, we shouldn't bother with the local police and State 
police, and the local task forces and these local school people 
and everybody. Just do what we say, we know, we are in 
Washington; we have been on the Hill a while now, so we need to 
do this.
    The fact is that it has to be cooperative. When it is 
cooperative, it is tough, because you have all these diverse 
voices, and particularly in drug prevention, who don't agree on 
anything, who, depending on the circumstances of their kids, 
their neighborhood--my sociology prof used to call them my Aunt 
Annie theory of evidence. It is tough. But if you are going to 
make this Strategic Prevention Framework work, and if you are 
going to in fact wind up knocking out, after we get the 
earmarks done and stuff, a number of other programs that 
historically went to grants to do Strategic Prevention 
Framework, make sure that your program gives them a real voice 
and not a manipulated voice that OCDETF says. OCDETF task 
forces, by the way, are great for their limited function, but 
their limited function heretofore has been the Federal 
Government paying overtime for police officers to testify in 
cases. As they want to get into the policy end, part of the 
problem here is, as we heard from local law enforcement, do we 
get a real voice or do we get to go to a meeting and be told 
what to do? And that is the fundamental of cooperative, of true 
empowerment, is there a vote to decide the Strategic Prevention 
Framework; is there real input or is it this is what we want to 
do, you are welcome to be on our board.
    So if you would like to comment on the Strategic Prevention 
Framework, but it is a general concern I have across the board. 
At least you are here today to defend your position and explain 
what you are doing, so thank you.
    Mr. Curie. Thank you, Mr. Chairman. The essence of 
Strategic Prevention Framework is to empower the local 
community, for them to really be able to get a handle on their 
particular needs, their particular risk factors. And I see the 
role of Federal Government is one of facilitation, one of 
providing an economy of scale, of resources to State and the 
community to be able to make decisions; not tell the community 
this is what you must do, but open up the reservoir of 
information that is available in efficient and effective ways 
for the community so they know what type of assessment tool to 
use in that community, so that they can begin making informed 
decisions. When I mentioned NREPP earlier, and I know there are 
efforts going forth right now to look among several Federal 
agencies to increase the repository of evidence-based programs, 
that a community not be told you have to use this program, but 
a community takes a look and they select, based on their needs, 
make an informed choice of what will work for their community.
    And also I couldn't agree with you more. Both you, Mr. 
Chairman, and Congressman Cummings talked about the passion of 
the individual. I think bringing all those leaders to the table 
in the first place, with the whole notion that this community 
is going to have its own prevention strategy that is 
coordinated, in which there is collaboration, begins to clearly 
set the stage to open up the door to volunteerism. I have 
spoken also to many private foundations about this concept, and 
they are very enthused that if a community has a strategy and 
they have a handle on what the needs of their community are and 
then they have embarked upon a process of funding programs 
which meet those particular needs, I think it is going to 
invite the private sector to have more confidence to invest in 
a community because they will see that a community has a true 
basis and strategy that is going to be measurable.
    And the other issue that I think for the Federal Government 
plays a role is helping empower in terms of evaluation. That is 
always difficult for a local community and State, but we can 
help facilitate that process to paint that national picture. 
And, again, I think we have a responsibility to keep those 
measures clear, to keep them consistent and not put undue 
burden on grantees or States.
    So I would view the Federal role in Strategic Prevention 
Framework as facilitation, technical assistance, providing an 
economy of scale for information, and empowering so informed 
decisions can be made.
    Mr. Souder. I want to pursue just a little bit more. My 
friend Bob Woodson always talked about--and by the time I leave 
this place, I am going to put this in a certain number of 
places, and we are moving toward it--a zip code test, that the 
bulk of the grants have to go to people who live in the zip 
code where the money goes through, because too often we have 
tried to address this with overhead percents, that to some 
degree what I feel is the Federal Government funds 10 different 
committees to coordinate and very little money to actually do, 
and that we need to figure out how to better streamline those 
type of systems.
    So I agree with you, evaluation is there, so maybe you put 
a percent in evaluation, things that you can better do by 
pooling. But now we come back to the fundamental question: How 
in the world do you do this without talking to Safe and Drug-
Free Schools, without talking to the other big players at the 
table? Because here is what you would theoretically do--and the 
only place right now we have to do this is through ONDCP, but 
they are not here, so I will ask you. You would think that all 
of you would be sitting down together, because what really is 
going to get people at the table is if they think dollars are 
coming.
    And if there was a way to reform some of these systems and 
say, look, we have a schools-based program, we have a 
communities-based program and the community anti-drug things, 
we have all your dollars, which you are kind of trying to put 
together through this Strategic Prevention Framework but, as 
you said, not overlap with the other dollars that are already 
out there, which is hard to do if you aren't sitting talking 
together, and that in this Framework that you would have a 
Strategic Prevention Framework that in fact would define and 
the people would participate and want to participate, and if 
they felt a sense of ownership, which has to be there, 
otherwise we are never going to end the set-aside grants in the 
schools. Even though multiple people have tried to do this, it 
has never been struck out. Why? Because nobody wants to cut the 
money for their local schools when there is no alternative 
vision on the table.
    And if there was an alternative vision on the table that 
said this is going to flow in by region, and that we are going 
to have a Strategic Prevention Framework, and the community 
anti-drug people and whatever else you are doing with your 
dollars, and the Safe and Drug-Free Schools dollars are going 
to be looked at in a comprehensive way by region so that it 
both flows as somewhat of an entitlement funding into a region 
so it isn't a zero sum game--that California is going to get 
all Indiana's money, for example--that there is some kind of a 
fairness and equity in the distribution of funds, then maybe 
people will come to the table and talk about this.
    Right now it really and honestly, as somebody who has 
worked with this for more than a decade now, looks so 
incredibly random that CADCA grants are funded this way in a 
bid process and this over here is a set-aside and an earmark 
over here and this one over here, and Safe and Drug-Free 
Schools entitlement down to the school, which, if you are a big 
school you can probably do something; if you are a little 
school, it is not enough dollars. Some of the programs are 
great; some of the programs are at least a program and they are 
saying drugs are bad, which is better than nothing.
    And you look at that and say why didn't the administration 
come forth with a more comprehensive way to address this rather 
than just proposing, more or less, chopping in half--your 
program is the least impacted, $15 million, but it is still a 
reduction. Everybody else is nearly wiped out. Why is there not 
any discussion? Have you heard any discussion about anything 
that I just mentioned? Has anybody ever mentioned that in a 
meeting?
    Mr. Curie. Well, I couldn't agree with you more that I 
think historically--and, again, that has been part of what I 
think has been the challenge to prevention, as well as a range 
of Federal programs, when there seems to be more of a funding 
stream mentality where certain funding streams get created and 
certain providers or certain grantees tend to find the end of 
that funding stream and they kind of stay in place and they 
never connect. And I think historically that is what we are up 
against.
    We have had discussions with Justice, with Education, and 
with DEA and other agencies around our Strategic Prevention 
Framework and discussed the very types of dynamics you just 
described, how we envision at the local level if we can have 
alignment at the Federal level, that other Federal agencies 
recognize Strategic Prevention Framework and think of ways of 
incentivizing grantees to be involved in that process.
    And I think your regional approach has merit for 
consideration, and as we make these awards to States, a State 
can definitely consider a regional approach in terms of how 
they manage this for local communities. But clearly I know the 
need you just described has been identified, has been seen, and 
we have had discussions, and I am pleased to say there has been 
enthusiasm expressed by those other entities around our SPF 
notion. I think what you have described is how can we continue 
to take SPF and a national strategy to ensure it is 
institutionalized, if you will.
    Mr. Souder. Thank you. And I am going to say for the 
record, and I have been a longtime friend of Director Walters 
too, but this is part of what a drug czar is supposed to be 
doing, and we need to have this proposed.
    Thank you very much for coming today.
    Mr. Curie. Thank you.
    Mr. Souder. Will the second panel please come forward?
    Now that everybody is comfortable, I am going to ask you to 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative.
    We are going to start with General Dean, chairman and CEO 
of the Community Anti-Drug Coalitions of America [CADCA].
    Thank you very much for coming today.

 STATEMENTS OF GENERAL ARTHUR T. DEAN, RET., CHAIRMAN AND CEO, 
COMMUNITY ANTI-DRUG COALITIONS OF AMERICA; STEPHEN J. PASIERB, 
PRESIDENT AND CEO, PARTNERSHIP FOR A DRUG-FREE AMERICA; BONNIE 
 HEDRICK, PH.D, EXECUTIVE DIRECTOR, OHIO RESOURCE NETWORK FOR 
  SAFE AND DRUG FREE SCHOOLS AND COMMUNITIES; CLARENCE JONES, 
COORDINATOR, SAFE AND DRUG-FREE YOUTH SECTION, FAIRFAX COUNTY, 
  VA PUBLIC SCHOOLS; TRACY MCKOY, PARENT COORDINATOR, FAIRFAX 
 COUNTY, VA; AND ASHLEY IZADPANAH, STUDENT, FAIRFAX COUNTY, VA

              STATEMENT OF GENERAL ARTHUR T. DEAN

    General Dean. Chairman Souder, Ranking Member Cummings and 
other distinguished members of the subcommittee, thank you for 
the opportunity to testify before you today on behalf of 
Community Anti-Drug Coalitions of America and our more than 
5,000 community members nationwide. I am very excited to 
provide you with CADCA's perspective on the critical importance 
of drug prevention.
    According to national experts, drug addiction is a 
development disorder that begins in adolescence, for which 
effective prevention is critical. The younger a person first 
uses drugs, the higher their chance of adult dependency and 
addiction.
    Drug prevention programs ensure that youth have accurate 
information about the harmfulness of drug use, as well as the 
skills necessary to refuse drugs.
    Historically, drug prevention has been severely underfunded 
relative to its importance and effectiveness in reducing drug 
use.
    Preventing drug use must be a major priority.
    There is a core set of Federal drug prevention programs 
that have worked to compliment each other in reducing youth 
drug use by 17 percent over the past 3 years.
    Each of these programs is unique and serves a specific 
function in our Nation's drug prevention efforts. Together, 
these programs constitute only 11.3 percent of the total 
Federal drug control budget in fiscal year 2005.
    The President's fiscal year 2006 budget proposes the 
elimination of the State Grants portion of the Safe and Drug-
Free Schools and Communities program and the DEA Demand 
Reduction Program. It also proposes to reduce funding for the 
National Guard Drug Demand Reduction Program and CSAP's Program 
for Regional and National Significance.
    The President's fiscal year 2006 budget would severely 
under-fund drug prevention. My written statement goes into 
detail about the importance of all the core Federal drug 
prevention programs. My remarks, however, due to time 
constraints, will focus only on two of these programs, the 
State Grants portion of the Safe and Drug-Free Schools and 
Communities Program and the Drug-Free Communities Program.
    The State Grants portion of the Safe and Drug-Free Schools 
and Communities Program is the backbone of the youth drug 
prevention in the United States. There are a number of 
misconceptions about the State Grants program that I would like 
to address.
    The first is that the program has not shown results. The 
reality is the Department of Education has not yet implemented 
the Uniform Management Information and Reporting System 
required by the No Child Left Behind Act. Despite this fact, 
States have exercised due diligence and collected the data to 
show positive impacts and documented outcomes. A comprehensive 
list of outcomes from selective States around the Nation is 
attached to my written testimony.
    Finally, there is a misconception that these funds are 
spread too thin to be effective. In fact, local education 
agencies who receive less than $10,000 have leveraged this 
small amount of money to provide effective programs and 
services. Under the President's proposed fiscal year 2006 
budget request, the entire $441 million for State Grants would 
be eliminated, while $87\1/2\ million would be added to the 
National Program for Competitive Grants. The new program is 
problematic. It will result in a very limited number of local 
education agencies receiving funds while leaving the majority 
of our Nation's schools and students with absolutely no drug 
prevention programming.
    CADCA is fully supportive of the President's fiscal year 
2006 proposal to increase the funding for the President's 
Student Drug Testing Initiative. CADCA is concerned, however, 
that this program cannot be effective without school-based drug 
prevention and intervention infrastructure provided by State 
Grants program. Eliminating the funding for the State Grants 
portion of the Safe and Drug-Free Schools and Communities 
Program is simply not an option for our Nation. Congress needs 
to intervene and restore this funding.
    The Drug-Free Communities Program is an essential 
bipartisan component of our Nation's demand reduction strategy. 
This program empowers citizens to get directly involved in 
solving their local drug issues. Drug-Free Communities Grants 
have achieved impressive results in communities throughout the 
country. My written testimony highlights significant outcomes 
achieved by Drug-Free Communities Grants across America.
    Since CADCA received a grant to manage the National 
Community Anti-Drug Coalition Institute, it has worked directly 
with hundreds of communities across the country to build and 
strengthen their capacity. Last year's appropriation included 
$2 million for the Institute. A funding level of $2 million is 
also necessary for fiscal year 2006 to ensure the effectiveness 
of Drug-Free Communities grantees.
    CADCA and its members are disappointed that the President's 
fiscal year 2006 budget did not include a request to increase 
funding for the Drug-Free Communities Program. This program not 
only has a proven track record in reducing drug use, but 
funding for it has historically been insufficient.
    In conclusion, all youth must have the benefit of effective 
prevention efforts. Cutting or eliminating any of the core 
Federal programs will strain already insufficient levels of 
activities and services available to prevent drug use. When 
funding for drug prevention wains, youth drug use surges. With 
drug use on the decline over the past 3 years, this is not the 
time to eliminate or cut funding for critical drug prevention 
programs. Enhanced drug prevention funding is needed to raise 
awareness about the dangers, costs, and consequences of illegal 
drug use, and provide the skills and support for youth to stay 
drug-free.
    Thank you for the opportunity to testify on this important 
subject, and I would be happy to answer any questions that you 
may have.
    [The prepared statement of Gen. Dean follows:]

    [GRAPHIC] [TIFF OMITTED] T3687.039
    
    [GRAPHIC] [TIFF OMITTED] T3687.040
    
    [GRAPHIC] [TIFF OMITTED] T3687.041
    
    [GRAPHIC] [TIFF OMITTED] T3687.042
    
    [GRAPHIC] [TIFF OMITTED] T3687.043
    
    [GRAPHIC] [TIFF OMITTED] T3687.044
    
    [GRAPHIC] [TIFF OMITTED] T3687.045
    
    [GRAPHIC] [TIFF OMITTED] T3687.046
    
    [GRAPHIC] [TIFF OMITTED] T3687.047
    
    [GRAPHIC] [TIFF OMITTED] T3687.048
    
    [GRAPHIC] [TIFF OMITTED] T3687.049
    
    [GRAPHIC] [TIFF OMITTED] T3687.050
    
    [GRAPHIC] [TIFF OMITTED] T3687.051
    
    [GRAPHIC] [TIFF OMITTED] T3687.052
    
    [GRAPHIC] [TIFF OMITTED] T3687.053
    
    [GRAPHIC] [TIFF OMITTED] T3687.054
    
    [GRAPHIC] [TIFF OMITTED] T3687.055
    
    [GRAPHIC] [TIFF OMITTED] T3687.056
    
    [GRAPHIC] [TIFF OMITTED] T3687.057
    
    [GRAPHIC] [TIFF OMITTED] T3687.058
    
    [GRAPHIC] [TIFF OMITTED] T3687.059
    
    [GRAPHIC] [TIFF OMITTED] T3687.060
    
    [GRAPHIC] [TIFF OMITTED] T3687.061
    
    [GRAPHIC] [TIFF OMITTED] T3687.062
    
    [GRAPHIC] [TIFF OMITTED] T3687.063
    
    [GRAPHIC] [TIFF OMITTED] T3687.064
    
    [GRAPHIC] [TIFF OMITTED] T3687.065
    
    [GRAPHIC] [TIFF OMITTED] T3687.066
    
    [GRAPHIC] [TIFF OMITTED] T3687.067
    
    [GRAPHIC] [TIFF OMITTED] T3687.068
    
    [GRAPHIC] [TIFF OMITTED] T3687.069
    
    [GRAPHIC] [TIFF OMITTED] T3687.070
    
    [GRAPHIC] [TIFF OMITTED] T3687.071
    
    [GRAPHIC] [TIFF OMITTED] T3687.072
    
    [GRAPHIC] [TIFF OMITTED] T3687.073
    
    [GRAPHIC] [TIFF OMITTED] T3687.074
    
    [GRAPHIC] [TIFF OMITTED] T3687.075
    
    [GRAPHIC] [TIFF OMITTED] T3687.076
    
    [GRAPHIC] [TIFF OMITTED] T3687.077
    
    [GRAPHIC] [TIFF OMITTED] T3687.078
    
    [GRAPHIC] [TIFF OMITTED] T3687.079
    
    [GRAPHIC] [TIFF OMITTED] T3687.080
    
    [GRAPHIC] [TIFF OMITTED] T3687.081
    
    [GRAPHIC] [TIFF OMITTED] T3687.082
    
    [GRAPHIC] [TIFF OMITTED] T3687.083
    
    [GRAPHIC] [TIFF OMITTED] T3687.084
    
    [GRAPHIC] [TIFF OMITTED] T3687.085
    
    [GRAPHIC] [TIFF OMITTED] T3687.086
    
    [GRAPHIC] [TIFF OMITTED] T3687.087
    
    [GRAPHIC] [TIFF OMITTED] T3687.088
    
    [GRAPHIC] [TIFF OMITTED] T3687.089
    
    [GRAPHIC] [TIFF OMITTED] T3687.090
    
    Mr. Souder. Thank you very much.
    Next is Mr. Stephen Pasierb, president and CEO of the 
Partnership for Drug-Free America.
    Thank you for coming.

                STATEMENT OF STEPHEN J. PASIERB

    Mr. Pasierb. Mr. Chairman, thank you for having me testify 
today. I want to thank this subcommittee, and particularly you, 
Mr. Chairman, for your steadfast attention to this issue and 
your tireless efforts. Particularly, Mr. Cummings, if you were 
in the room, you have done so much for this effort over the 
years that we are deeply, deeply appreciative.
    The Partnership, as you know, is a coalition of volunteers 
from throughout the communities industry. We are best known for 
our research-based education campaigns that have been proven to 
be effective not only in changing attitudes about drug use, but 
in changing behavior: reducing illicit drug use.
    Since 1998, the Partnership has served as the primary 
creative partner to the Office of National Drug Control Policy 
on the National Youth Anti-Drug Media Campaign. As you know, 
Congress authorized the Media Campaign knowing that the private 
sector, working through the nonprofit Partnership for a Drug-
Free America, had agreed to contribute its time, its talent, 
and its expertise in advertising and marketing to this first-
of-a-kind effort in the truest sense of a public-private 
partnership.
    I am happy and proud to report, Mr. Chairman, that the 
private sector volunteerism has delivered on this commitment 
and has contributed approximately $125 million to the 
advertising campaigns and professional services of the Media 
Campaign. And the good news is that commitment remains 
absolutely steadfast.
    The President's budget has requested $120 million for the 
Media Campaign for fiscal year 2006, which is the same allotted 
by Congress for this fiscal year, fiscal year 2005. This is 
down from $145 million in the previous year and, as was noted 
earlier, a far cry from the $195 million originally 
appropriated in 1998. Congress appropriated $195 million in 
1998 so that the Campaign could achieve very specific 
objectives in terms of reach and frequency, and it is important 
to note that the Campaign is operating with much less today, in 
an environment where media costs far exceed what they were in 
1998. In fact, given annual inflation in the costs of media, 
just to keep pace with 1998's investment of $195 million would 
require $256 million today. The gap between the current $120 
million, or even the preferred $145 million investment, and 
$256 million is very obvious.
    Furthermore, Mr. Chairman, every cut to the Campaign 
translates into a double cut in exposure, if you will, because 
the media is required by law to match every dollar invested by 
the Government with a dollar in equal quality free time. So 
when $25 million was cut from the Campaign, the fact is that 
$50 million was cut from the impact on reaching at-risk teens 
and their parents.
    To remain effective, the National Youth Anti-Drug Media 
Campaign requires a sustained investment, not cuts. In the 
business world, when marketing campaigns are producing solid 
results like this campaign is, brand managers invest even more, 
not less, to sustain and accelerate the results.
    The Partnership for a Drug-Free America is advocating that 
the Media Campaign's funding level for fiscal year 2006 be 
restored to the previous level of $145 million. We do so, Mr. 
Chairman, because we believe this program is delivering 
unprecedented leverage and excellent results for the 
investments that have been provided so far.
    I would like to offer some evidence on the effectiveness of 
the Media Campaign from data drawn from the 2004 Partnership 
Attitude Tracking Study. This is the 17th year of our Nations 
largest study on attitudes and drug use. The study was 
conducted on over 7,000 high school and middle school kids in 
private, parochial, and public schools. We know some things 
from this study specific to the Media Campaign.
    First, significantly fewer teenagers are using marijuana 
today when compared to 1998, the year the Media Campaign was 
launched. Reductions are evident in all measured categories, of 
prevalence, be it lifetime, past year, or past month. 
Marijuana-related risk attitudes among teens have improved 
significantly over the same time. And, as you know, the Media 
Campaign has focused primarily on marijuana abuse.
    Second, significantly few teenagers are using ecstasy. In 
fact, the data report a 25 percent decline in the number of 
teens using this dangerous drug since it peaked in 2001. Our 
collective efforts to reduce demands for ecstasy have produced 
exceptional results.
    Third, the PATS data continue to report strong correlations 
between heavy exposure to Media Campaign advertising and lower 
drug use and stronger anti-drug attitudes among our teens. In 
2003, RoperASW reported that teens exposed frequently to ads 
were far more likely to have stronger anti-drug attitudes and 
up to 38 percent less likely to use drugs. Ed Keller, who is 
the CEO of RoperASW, is quoted as saying, ``There is a clear 
correlation between exposure to anti-drug ads and the decisions 
teens make regarding drugs.'' He added, ``With a relationship 
this strong, it's evident that working to boost the number of 
teens who see or hear anti-drug messages on a daily basis can 
help drive down drug use.''
    Fourth from the study, the number of teenagers reporting 
learning a lot about the risks of drugs from television 
commercials has increased steadily since the launch of the 
Media Campaign. In fact--and this is somewhat a mixed story--
the data report this year for the first time in history that 
teens are more likely to cite television commercials as a key 
source of anti-drug information than any other source. And, 
unfortunately, parents slipped to the No. 2 position in that 
study.
    Finally, 2004 was the first year the data reported a 
decline in the number of teenagers reporting seeing or hearing 
anti-drug messages daily or more frequently. Cuts in funding 
are starting to hurt the Media Campaign and put our hard-won 
progress at risk.
    As long as we are blessed with each new generation of 
children, we are going to need to educate them about the 
dangers of an ever-changing, even more dangerous drug 
landscape.
    Mr. Chairman, committee, we will not find a more efficient, 
more effective way to reach and educate teenagers about the 
dangers of illicit drugs than through research-based efforts 
like the National Youth Anti-Drug Media Campaign. We will not 
find a more efficient way to educate teens about the dangers of 
drugs than through the power and influence and reach, most 
importantly, of mass media.
    Consider, Mr. Chairman, that even at a restored funding 
level of $145 million, the Media Campaign is exceptionally 
efficient, requiring just $6 per teenager per year. Consider 
that every year, to sell its products, Proctor and Gamble 
spends well over $1 billion on television advertising alone; 
Walt Disney Co. $800 million; PepsiCo $740 million; McDonald's 
$560 million for burgers, fries, and soft drinks.
    While $145 million is indeed a great deal of money, we face 
stiff competition to reach teenagers in America. We must give 
the Media Campaign every chance to continue to produce results. 
Reducing the demand for illicit drugs by changing consumer 
attitudes works. That is what the Media Campaign is all about, 
and we must invest more in it, not less, to realize its full 
potential.
    Thank you.
    [The prepared statement of Mr. Pasierb follows:]

    [GRAPHIC] [TIFF OMITTED] T3687.091
    
    [GRAPHIC] [TIFF OMITTED] T3687.092
    
    [GRAPHIC] [TIFF OMITTED] T3687.093
    
    [GRAPHIC] [TIFF OMITTED] T3687.094
    
    [GRAPHIC] [TIFF OMITTED] T3687.095
    
    [GRAPHIC] [TIFF OMITTED] T3687.096
    
    [GRAPHIC] [TIFF OMITTED] T3687.097
    
    [GRAPHIC] [TIFF OMITTED] T3687.098
    
    [GRAPHIC] [TIFF OMITTED] T3687.099
    
    Mr. Souder. Thank you.
    Our next witness is Dr. Bonnie Hedrick, executive director 
of the Ohio Resource Network for Safe and Drug-Free Schools and 
Communities at the University of Cincinnati.
    Thank you for joining us today.

                  STATEMENT OF BONNIE HEDRICK

    Ms. Hedrick. Thank you and good afternoon. Thank you, 
Chairman Souder, Ranking Member Cummings, and other committee 
members, for allowing me to speak today. I will be sharing 
information about drug prevention efforts in Ohio as it relates 
to one of the findings of the Rand Report on the Safe and Drug-
Free Schools State Grant program. I reference this report as it 
was quoted frequently in the PART review of Title IV, which has 
contributed to its proposed elimination.
    One criticism emphasized in the Rand Report is the formula-
based distribution of funds. The report recommends that a 
competitive grant process be used and that funds be reserved 
for schools in greatest need. They contend this approach would 
be superior to the current practice of spreading the money too 
thinly across all schools.
    I am here to tell you today that Title IV operations in 
Ohio, the people who operate those operations, contend that 
assumption. They say that even meager amounts help small rural 
towns with minimal resources.
    Ohio, like many States, is approximately 75 percent rural 
farmland. We have found that people in these areas approach 
prevention in non-traditional ways, but in the end they 
accomplish their goals, as you will see in the handout that has 
been prepared for you. Ohio schools have used their Federal 
funds to leverage local dollars, volunteers and donations to 
get the job done.
    For example, in Lucas County, Maumee Junior High School 
only gets about $8,000 a year in Title IV funds, but the local 
hospital contributes another $25,000 to keep the student 
assistance program running. In Mahoning County, South Range 
Elementary School gets even less, $5,200, and the school 
guidance counselor, who serves as the Safe and Drug-Free School 
coordinator, still manages to run an after-school mentoring 
program by using volunteers and donations. That is the kind of 
effort that the Congressmen were speaking about earlier.
    Ohio ``scatters'' our $15.7 million in Title IV funds over 
790 Local Education Agencies in 88 counties. Despite what the 
Rand Report would call a ``misdirected program,'' we reach over 
a million school children every year. That figure includes 
every 5th and 7th grade student in Cincinnati public schools 
who receive life skills training. The Governor's portion funds 
another 44 programs in 26 counties and reach 70,000 children 
who are frequently out of school, runaway youth, homeless 
youth, youth in detention centers, pregnant and parenting 
teens.
    If Safe and Drug-Free Schools funding is eliminated, or if 
it is allocated only to a select number of schools, with a good 
grant writer, I might add, the new cohort of Cincinnati 
students will not have the opportunity to build social 
competencies that will make them more employable in the future. 
Newly settled Latino families in East Cleveland and Toledo will 
lose culturally relevant support during their transition into 
America. But the children of Mahoning County will probably 
still have a mentor, because once a good mentoring relationship 
is established, they don't fade away with the absence of 
funding.
    Ohio, like other States, has seen decreases in alcohol and 
other drug use over the past few years. Title IV funds have 
contributed to that. Drugs that have not received a lot of 
attention, however, are creeping back on the scene. Four 
students near my hometown, for example, have died of heroin 
overdose.
    I ask you to refer to your handout to look more 
specifically at what the accomplishments have been for that 
program specific to Ohio.
    Last week, news surfaced about the gang rape of a female 
student in Columbus that occurred behind the curtain in the 
school gym. Later that day we learned about a riot on a 
playground during a fire drill at another school near 
Cleveland. One of my staff finished the day by counseling a 
parent of a child who had been chronically bullied since the 
beginning of school in another school near Cleveland. Our work 
is real and it is not finished.
    Dana is a testament to the impact that Safe and Drug-Free 
School coordinators have on the lives of students. Her school 
receives $56,000 in Safe and Drug-Free School funds, which is 
enough to hire a full-time coordinator; not much left of 
programming. When a Lorain County student, Dana was a constant 
referral for behavior problems; she was failing, she was 
dropping out of school, she had been suspended. And then she 
got referred to the Safe and Drug-Free School coordinator. When 
she started working with her, it was discovered that Dana was 
trying to support her family. Her mom was an alcoholic, she had 
two younger siblings, there was no father present. She was 
working at McDonald's to make money to keep the family going. 
Homework was left until late at night, if she had energy to do 
it.
    With the support of a caring adult and Children of 
Alcoholics support group, Dana has since graduated and gone to 
college. Today she is doing very well. Without intervention and 
support from a caring adult at school, Dana would have likely 
dropped out of school and continued the cycle of addiction that 
had been modeled for her in her home.
    What is scary is that under the Rand proposal, Dana's 
school would never have met the criteria of a school in 
greatest need. That didn't preclude Dana from being a child of 
great need.
    Certainly there are flaws in the present Safe and Drug-Free 
School program that require fixing, but not elimination. As a 
Nation, I don't see how we can afford to eliminate a program 
that has changed the lives of children like Dana. Schools might 
deny that this is not their problem, but Safe and Drug-Free 
School coordinators know better, and they act differently.
    Thank you for allowing me to share Ohio efforts with you 
today.
    [The prepared statement of Ms. Hedrick follows:]

    [GRAPHIC] [TIFF OMITTED] T3687.100
    
    [GRAPHIC] [TIFF OMITTED] T3687.101
    
    [GRAPHIC] [TIFF OMITTED] T3687.102
    
    [GRAPHIC] [TIFF OMITTED] T3687.103
    
    [GRAPHIC] [TIFF OMITTED] T3687.104
    
    [GRAPHIC] [TIFF OMITTED] T3687.105
    
    [GRAPHIC] [TIFF OMITTED] T3687.106
    
    [GRAPHIC] [TIFF OMITTED] T3687.107
    
    [GRAPHIC] [TIFF OMITTED] T3687.108
    
    Mr. Souder. Thank you very much.
    Now we are going to focus in on Fairfax County for a little 
bit here. Mr. Clarence Jones, coordinator of the Safe and Drug-
Free Schools Youth Section, Fairfax County Public Schools.
    Thank you for joining us today.

                  STATEMENT OF CLARENCE JONES

    Mr. Jones. Thank you.
    Chairman Souder, Ranking Member Cummings, and other 
distinguished members of the Criminal Justice, Drug Policy, and 
Human Resource Subcommittee, thank you for the opportunity to 
testify before you today on behalf of Fairfax County Public 
Schools.
    I am pleased to be here today to share my concerns about 
the 2006 budgetary decision to eliminate funding from the State 
Grants portion of the Safe and Drug-Free Schools program. I am 
here representing Fairfax County Public Schools Safe and Drug-
Free Section and the school system at large.
    Fairfax County Public Schools receives approximately 
$564,000 each year from the Virginia Department of Education 
Safe and Drug-Free School's office to accomplish anti-drug 
related programs. These funds are the foundation on which 
Fairfax County Public Schools drug prevention efforts are 
based. These funds help provide anti-drug prevention programs 
to over 230 schools which serve more than 170,000 students in 
the 12th largest school system in the United States.
    The No Child Left Behind Act requires all Safe and Drug-
Free Schools programs to adhere to the principles of 
effectiveness and to use funding on scientifically based 
programs. Fairfax County Public Schools has been using these 
principles of effectiveness since it was first introduced by 
the Virginia Department of Education, long before No Child Left 
Behind made it mandatory.
    Mr. John Walters, head of the Office of ONDCP, invited the 
Safe and Drug-Free Youth Section staff to meet with him and his 
staff after he entered his position. He wanted to see how an 
effective school system blended funding from local, State, and 
Federal sources into a working process to get the desired 
results and to prove that their programs were making a 
difference. We provided Mr. Walters with information on how we 
use our funding and impressed upon him that the Safe and Drug-
Free Schools program funding was the foundation of all programs 
in Fairfax County Public Schools. Fairfax County Public Schools 
was also the school system chosen by President Bush to bring 
Mr. Walters when he was announced as the new head of ONDCP. 
Fairfax County Public School system was chosen because of its 
outstanding drug prevention programs.
    In 2001, Fairfax County Public Schools completed the 
Community that Cares Survey. This survey provided Fairfax 
County with much needed information on the direction of its 
drug prevention programs. In 2003, the followup survey was 
conducted with the following results. And you have those in 
front of you, but I do want to point out some of the stats.
    Within a 30-day period prior to the survey, the use of 
alcohol was reported as 12.8 percent of 8th graders, compared 
to 21 percent in 2001, a big drop; 33.2 percent of 10th 
graders, compared to 36 percent in 2001, another drop; 27.6 
percent of 12th graders reported binge drinking in the last 2 
weeks, compared to 31 percent in 2001.
    The use of Safe and Drug-Free funding helped to reduce 
alcohol use at all of the survey grade levels.
    Same situation with marijuana use: 2.8 percent of 8th 
graders, compared to 5.1 percent in 2001; 11.6 percent of 10th 
graders, compared to 13 percent in 2001; and this also using 
Safe and Drug-Free moneys.
    Also, when you talk about cigarettes, the same scenario is 
happening: 4.1 percent of 8th graders, compared to 9.3 percent 
in 2001; and you see the trend going on and on and on.
    The use of Safe and Drug-Free Schools and Communities 
moneys made a major difference.
    The above information just demonstrated that the use of 
Safe and Drug-Free funding is making a difference. The next 
youth survey will be conducted in October 2005. Because of the 
increase in the prevention programs I am about to mention, we 
believe these percentages will continue their downward trend as 
we continue to use Safe and Drug-Free funding to support our 
programs.
    Mr. Cummings said earlier that he would love to see other 
parts of the community come together, and he did this here, he 
pointed to his heart, for those volunteers right here: I can 
say this. Fairfax County Public Schools has established school 
community coalitions in order to bring parents, community 
members, medical, law enforcement, business, faith, and many 
other sectors into the prevention family. Educating the 
community on the dangers of drugs and how they can support the 
drug prevention efforts of the schools has proven to be 
invaluable. These coalitions have become the bridge from the 
schools to the community, and now we all can speak the same 
drug-free language.
    Fairfax County, VA is one of the most diverse counties in 
America. These drug prevention coalitions have made it possible 
to reach out to the many different cultures in our county. We 
have the No. 1 diverse high school in America, Stewart High 
School, that has over 110 different languages spoken in that 
particular school.
    Using scientifically researched-based programs in schools 
paid for by Safe and Drug-Free funding has proven, as I said, 
to be invaluable. Such programs as Too Good for Drugs, Life 
Skills, and Guiding Good Choices are just a few that have 
provided students and parents with information to help in the 
prevention of drugs in our schools and communities.
    There is a perception that the Program Assessment Rating 
Tool [PART], score justifies eliminating the State Grant 
portion of the Safe and Drug-Free program. If that same rating 
tool is used in Fairfax County Public Schools, it would soon 
become evident that our system met the requirements as well as 
collected data to show a very positive impact with documented 
outcomes.
    The Virginia Department of Education has produced this 
document right here with all the different programs provided 
using Safe and Drug-Free funds in the Commonwealth of Virginia. 
These programs are making a difference.
    As a member of the Executive Board of the National Network 
for Safe and Drug-Free Schools Coordinator, I feel it is also 
my role to speak for school systems across America. Elimination 
of this funding will have a catastrophic effect on the balance 
of drug users among school-aged children in America. Many 
school systems across America have found unique ways to combine 
these funds with very little local moneys in order to provide 
the highest level of drug prevention.
    Removing the monetary foundation of these programs could 
cause many, if not all, of them to collapse. I know this 
because in our system, one of the wealthiest in the Nation, 
elimination of these funds would severely impact or cancel many 
well developed, well documented and successful drug prevention 
programs. I can't imagine how drug prevention programs in other 
smaller systems will survive.
    In closing, I want to say this here: As a veteran of the 
U.S. Air Force for 24 years, and now retired, I understand the 
need to fully fund programs that deter and prevent undesirable 
and negative behavior that will impact the American way of 
life. My current role as the coordinator of the Safe and Drug-
Free Schools for Fairfax County Public Schools is not much 
different. I am still in the role of finding ways to prevent 
undesirable and negative behaviors: in this case drug use among 
our youngest citizens. Therefore, I was shocked when I first 
heard the news of President Bush's budget for 2006. The message 
that this budget is sending to our youth and communities is 
simple: we don't care about the health and well-being of our 
children.
    I, as well as other school systems across America, am 
asking for your support to continue to prove to all Americans 
that our children are truly worth the effort. This funding does 
make a difference.
    Thank you for the opportunity to testify on this subject.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T3687.109
    
    [GRAPHIC] [TIFF OMITTED] T3687.110
    
    [GRAPHIC] [TIFF OMITTED] T3687.111
    
    Mr. Souder. Thank you very much.
    Our next witness is Ms. Tracy McKoy, parent coordinator in 
Fairfax County.

                    STATEMENT OF TRACY MCKOY

    Ms. McKoy. Chairman Souder, Mr. Cummings, and committee 
members, thank you for this opportunity to speak to you.
    Though I am a middle school educator by profession, I am 
here today as the parent of three daughters, each of whom has 
benefited from the program set forth by the Safe and Drug-Free 
School and Community Act. With the help of these programs, my 
girls have successfully navigated through their teenage years. 
They have successfully navigated through the halls of their 
high school drug and alcohol-free. They have made the choice to 
walk away from substance abuse.
    Jaime was a Just Say No Club president in her elementary 
school 14 years ago. She learned leadership skills and 
developed confidence as she conducted meetings and school-wide 
assemblies. She attended rallies at the Patriot Center here in 
northern Virginia along with thousands of other students. They 
learned through music, drama, the Air Force band, speeches from 
the attorney general that you can have fund and be successful 
without alcohol and drugs.
    My second daughter just graduated from college last week. 
She was also a member of the Just Say No Club in elementary 
school and as a senior in high school she was successful as the 
president of the Youth to Youth Club, which promotes prevention 
and alcohol substance abuse. Members of this club travel to 
many schools, confidently sharing their views of the importance 
of keeping their lives drug-free. Stacey and her friends were 
excellent role models for their younger audiences.
    Yesterday I asked her to reflect on her experiences. She 
said, ``Mom, I don't know how much I impacted the elementary 
schools that I visited when I was a senior and through my high 
school years, but I know that it affected me a lot to listen to 
the high school kids when they came to me in 5th and 6th grade. 
That's why I did what I did.''
    She believes if parents include staying away from drugs and 
alcohol in the teaching of their moral values, this program 
gives kids the confidence to make choices that they want to 
make anyway. It shows them how to make good choices and how to 
stick to them.
    Currently, my third daughter, Erin, serves on the same 
committee that Ashley does, and you will hear from her in a 
moment. She too has learned leadership skills and has brain-
stormed with other teenagers on how to keep our communities and 
school drug, alcohol, and tobacco-free. Recently she 
participated in a public service announcement which airs 
frequently. This particular announcement is focused on 
educating parents as to what some of their children may be 
doing and where they may be hiding some of the paraphernalia in 
their own homes.
    As a youngster, Erin was the vice president of her Just Say 
No Club in elementary school, and as a 7th grader she wrote 
this paragraph regarding her experiences there: ``I have had 
numerous leadership positions throughout the past few years. In 
the 6th grade I was a Just Say No vice president as well as a 
second counselor in my church youth group. Serving as Just Say 
No vice president was a great experience for me because of the 
opportunities I had. Walking down Eldon Street in the middle of 
a cold October homecoming parade, chanting at the top of my 
lungs with a couple hundred group of kids from my elementary 
school is an experience I will never forget. The whole town 
heard what I thought about drugs that day. Losing my voice and 
having people yell 'sing it, girl,' are some of my favorite 
memories.''
    And later she writes about citizenship, ``I believe it is 
being an individual, but at the same time it is working with 
others to reach a common goal''--which is, I think, what we are 
doing here today. ``I showed my fellow students that I had 
excellent citizenship when they elected me as their Just Say No 
vice president. They knew I would do a good job, and that is 
why I ran. I believe that is why they voted for me.''
    It is my testimony that drug prevention programs in the 
schools and communities do make a difference. I believe I speak 
today for many parents. There is one thing that parents are 
passionate about, and that is their children. We cannot put a 
price tag on the youth of our Nation who choose to stay drug 
and alcohol-free.
    Do I give sole credit to these programs for the successes 
of my children? No. Do I take credit for their successes as a 
parent teaching them within the laws of my own home? No. But I 
think all of those things coupled together with their good 
decisionmaking makes a great difference in the lives of our 
youth. I can't even imagine that this funding was considered 
being cut, and when I heard that it was, I am happy to be a 
voice today.
    I am grateful for these programs, and my children's voices 
have been heard and continue to be heard in their arenas. I 
hear their voice; their teachers hear their voices; their 
friends and peers hear their voices; their coaches; their 
associates in the workplace. I believe what these programs give 
our children is the ability to step inside an arena, whether it 
be a puppet show, presentation, or an assembly in the Patriot 
Center. It gives them an arena to step into knowing that 
standing next to them are other students and friends who have 
the same values that they do and that they know that it is not 
just about mom and dad wanting them to be making these choices, 
but they can make the choices that they want to knowing it is 
the right thing.
    Thank you for your time.
    Mr. Souder. Thank you.
    Our closing witness today, our cleanup hitter is Ms. Ashley 
Izadpanah, student at Fairfax County Robinson High School.
    Thank you for coming today.

                 STATEMENT OF ASHLEY IZADPANAH

    Ms. Izadpanah. Good afternoon. Thank you for giving me the 
opportunity to speak before you today. My name is Ashley 
Izadpanah, and I am a junior at Robinson Secondary School.
    When I was in the 7th grade, I joined the Safe and Drug-
Free Youth Council as a representative for the Robinson 
Community Coalition. I wanted the chance to make a difference 
in the way my community responded to issue surrounding teens: 
drugs, alcohol, and tobacco. Along with the Robinson Community 
Coalition, Robinson also offers a program called Power Team, a 
group of students who aim to lead drug-free lives and spread 
anti-drug messages.
    During my involvement with the Safe and Drug-Free Youth 
Council, I have done just that. I have joined together with 
other concerned students locally, across the Commonwealth of 
Virginia, and across the Nation to gain knowledge, offering 
opinions and speaking out in an effort to spread the message of 
health and safety to youth and their families.
    When young people talk, young people listen. Oftentimes, 
when young people talk, parents listen. One of the projects I 
am very proud to have participated in was the development of a 
series of Public Service Announcements on drug abuse that air 
on Cox Communications television stations. The clips are geared 
toward informing parents about issues their children might be 
having in their schools and communities. People who don't know 
me have stopped to ask me if that was me they saw on the PSA. 
Hopefully, their parents were watching too. The fact that I 
have had random people from school and even the grocery store 
talk to me about the PSA makes me feel that the anti-drug 
message is spreading effectively in my community.
    Another project I have participated in as a member of the 
Safe and Drug-Free Youth Council is the production of anti-drug 
posters. These will be all over the walls in northern Virginia 
schools and will serve as a constant reminder of the importance 
of drug awareness.
    Youth Against Drug Abuse and Prevention Project [YADAPP], 
is a week-long, student-run leadership conference that includes 
students from all over Virginia who talk about problems they 
see in their school and community regarding drug and alcohol 
abuse. During the camp, a primary focus is enforcing leadership 
qualities within each participant, so we return home with the 
confidence and knowledge to be leaders within our communities.
    I am so excited to have the opportunity to attend YADAPP 
because it has impacted my life in so many ways. As a student, 
I have seen when other students are placed in a positive drug-
free environment, it strengthens our desire to remain drug-free 
and enforces our decision to spread that message. Last summer I 
attended YADAPP as a participant and have been chosen to attend 
YADAPP again this summer as a Youth Leader. This would not have 
been possible if programs like the Safe and Drug-Free Youth 
Council did not exist.
    The Safe and Drug-Free Youth Council adult sponsors provide 
us with the opportunity to be heard on issues that matter to 
the youth today. They guide us and help us to make a difference 
in the way our community makes decisions on not only today's, 
but also tomorrow's uncertain world.
    I have two younger brothers, ages 5 and 12, who will 
benefit from my involvement in the Safe and Drug-Free Youth 
Council. I take the experiences, leadership skills, and the 
confidence I find at council meetings and practice them on my 
family, neighbors, and peers at school. This program has not 
only helped me stay safe and drug-free, but has also impacted 
the lives of countless youth across the United States.
    However, as we are all aware, the budget for the anti-drug 
efforts has been dramatically reduced. When I first heard of 
this cut, I could not get over the fact that the Government is 
willing to take money away from an effort that aims toward the 
well-being of today's youth, my generation. Today's youth make 
up tomorrow's America, and without anti-drug programs to help 
teens to choose correct paths, I fear for the future's outcome. 
To take money away from those whose actions are easily 
influenced by the media and peers is to me just asking for 
further drug abuse by today's youth.
    The self-respect, self-esteem, confidence, and knowledge 
gained through the experiences provided by programs like the 
Safe and Drug-Free Youth Council help young people and their 
families make wise decisions that can impact them for a 
lifetime.
    In closing, I would like to say that even though the 
Government is willing to reduce its investment in its anti-drug 
efforts, it is safe to assume that drug dealers will not cut 
back on their efforts and will continue to invest in their 
corrupting activities.
    I urge you to rethink reducing the budget for the well-
being of today's youth and to continue to support programs like 
the Safe and Drug-Free Youth Council.
    Thank you.
    [The prepared statement of Ms. Izadpanah follows:]

    [GRAPHIC] [TIFF OMITTED] T3687.112
    
    [GRAPHIC] [TIFF OMITTED] T3687.113
    
    Mr. Souder. I thank you all for your testimony.
    There are so many different ways to go in the questioning. 
Let me start with General Dean and Mr. Jones. I want to zero in 
on, in particular, the Safe and Drug-Free Schools for a minute. 
This isn't the first time we have been through this.
    My assumption is if we make some strong statements here, we 
will not have to go through it on an annual basis. It makes it 
very difficult to plan, very difficult to--so many resources 
get spent trying to maintain something that has never been 
eliminated. The closest we came that I recall I think was in 
2001, when--excuse me, in 1995, when the Republicans first took 
over Congress, and the speaker and Chairman Porter and the 
subcommittee and the full Appropriations chairman were all 
committed to eliminating it, along with the Clinton 
administration, and it was a big fight to try to preserve the 
program.
    But, bottom line, the same thing was true then as is true 
now, which is that everybody talks about prevention, but they 
don't really have an alternative if we don't do this program. 
And we had a GAO study then, a Rand study, where people take 
shots at the program, but nobody really has come up with 
something else as to how to exactly do this. This is not easy.
    Yet it is clear that given the budget tightness, unless we 
make some changes in the program it is going to be very 
difficult, long-term, to sustain the funding. In other words, 
if they come at this with a 10 to 20 percent reduction, this 
would be a different battle than going after the whole thing. 
So as a practical matter we need to look at this.
    And one of my questions is--let me mention one other thing. 
I mentioned I was on Education the last time this bill went 
through. I believe I counted it up at the end. I believe I had 
32, but it was over 30 personal changes in the bill as we 
worked through to try to do this and keep the funds separated 
under President Bush. It must have been 2001, I think, when we 
did reauthorization, because we have to be coming up close to 
it again.
    I went directly to President Bush and the White House, 
because they were going to block grant this as part of a 
broader block grant without any Safe and Drug-Free Schools 
targeted money, and said, point blank, that they didn't have an 
alternative. And I know John Boehner was chairman of the 
committee, so it had to be somewhere in that timeframe. In the 
question, and one of my frustrations was this started as an 
anti-drug program in the schools. Then we made it Safe and 
Drug-Free Schools.
    Then at one point in the Education Committee I got so 
exasperated because there were three different, I believe, or 
25 different allowable uses, because everybody would propose 
something--mental health, health, after-school programs, 
basketball, whatever--as an allowable use for Safe and Drug-
Free Schools, the argument being all these activities reduce 
drug abuse. At one point in my frustration I offered education, 
because, in fact, education dollars theoretically reduce drug 
abuse if you do well in school, so why not have an after-school 
reading program? Then what is the point of a drug program? At 
some point why don't we just put it in the education budget? We 
negated our own argument by having this long list of other 
types of things.
    So if we are realistically going to address this long-term, 
do you think it is time to separate the anti-violence from the 
anti-drug, or what other suggestions would you have to try to 
get this. If we are going to argue it as a drug prevention 
program, it needs to be a drug prevention program, and that is 
part of our problem here. I would be interested, General Dean, 
in your comments and Mr. Jones.
    General Dean. As I have traveled the country and talked to 
people like Dr. Hedrick and others, and Clarence, it is clear 
that, one, the program needs, in my opinion and their opinion, 
national leadership, which means that the Uniform Management 
Information Reporting System needs to be implemented so that 
guidance is clearly given and States are not working based on 
their own guidance, No. 1.
    No. 2, there is concern that there has been too much 
emphasis--and it goes back to Columbine and other incidents 
that happened in schools that have been violence incidents--
that there has been a shift in the emphasis in the program and 
a great deal of the dollars have been spent on the violence 
side, to the point that it may be out of balance, and it has 
become a little bit more violence prevention than it is drug 
prevention.
    So I would agree with your comment that we need to look 
carefully at the program and ensure that it is in fact doing 
what it was originally intended to do, and that we have not 
made it a program that has taken on new responsibilities for 
which it was not designed to do. So I sum up by saying we are 
concerned lack of leadership; two, yes, we believe what you 
said is correct, that it has become too broad of a program.
    Mr. Souder. Mr. Jones, maybe--and I meant to have Dr. 
Hedrick, too, kind of go through what is happening Ohio, but 
could you describe at Fairfax, at the school level, do you make 
sure these are all anti-drug, or do you have a proliferation of 
different things? How does it tie together thematically?
    Mr. Jones. Actually, we combine them both. We do programs 
for parents that will talk about drugs and violence. We do 
programs in the schools that do the same. To give you an 
example, at the middle school level, the school system provides 
funding for an after-school program at all our middle schools. 
Using Safe and Drug-Free moneys and working with our 
coalitions, we provide those same middle schools, which are 25 
of them, a science-based program for after-school programs such 
as Get Real About Violence or on the Drug Side of the House 
over here we look at life skills and for parents Guiding Good 
Choices.
    So we have found a way to bring those programs together to 
work. And by doing that right there, we are getting a lot of 
positive results both from the violence side of the House and 
also on the drug side of the House.
    But I do agree with General Dean. We need to take a real 
good look at that because there is a push to use more of that 
funding to take a look on the violence side, because of the 
gang situation. And I think I am the only one right now 
standing in the way of not letting it being pushed that way 
because I believe that we need to take a very hard look even 
more at the drug side because drug use leads to everything that 
is going to be on the right side. So we have found a way to 
mesh those programs, and right now they are working pretty 
successful.
    Mr. Souder. Let me have Dr. Hedrick, then I will come back.
    Ms. Hedrick. In Ohio we have used the research of Dr. David 
Hawkins and Joseph Catalano that was published in the 
Psychological Bulletin of 1993, first published, that outlined 
a series of risks and protective factors. Mr. Curie spoke of 
that earlier as part of the National Prevention Framework. So 
we use risk and protective factors helping a community or a 
school look at specific risk factors for either violence or 
drugs, and then placing more emphasis on programs or solutions 
that build the protective factors.
    There are certain risk factors that are very specific to 
alcohol and drugs, for example accessibility of alcohol in the 
neighborhood, that have to be focused on, and this is where the 
marriage between Drug-Free Communities and Safe and Drug-Free 
Schools becomes real clear, because when a community is working 
on those environmental risk factors, and the school is working 
at the drug education and building a connection and the 
relationships and having the leadership programs that Ashley 
talked about, that is the best case scenario.
    The other thing that we have used is the National 
Longitudinal Study that was produced by the National Institutes 
of Health, and that is one of the best bodies of research that 
is out there to tell us really what makes a difference in the 
lives of kids, and that is connections. And when kids feel 
connected, they feel less alienated from home, from school, 
from community, they are less likely, and it is proven in the 
research, to be violent, to be a bully, or to use alcohol and 
other drugs; and there are some other antisocial behaviors that 
they are less likely to do too.
    A lot of our programming in Ohio is focused on those 
strength-based approaches. Taking young people like the Danas I 
mentioned earlier, or Ashley, and saying look at these valuable 
resources we have before us. Now, what can we do to embrace 
them, to build that potential to the very best that it can 
possibly be? And we try to build the capacity of schools and 
school leadership to facilitate those mentoring relationships, 
those positive relationships for kids.
    Mr. Souder. Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman.
    I represent Los Angeles, CA, certain area of Los Angeles, 
and what I have observed over the years being a member of the 
school board and so on, we have a subculture going, and in that 
subculture that emanates from the lack of a functional home 
environment, therefore, a dysfunctional neighborhood and 
community, that there is a culture that requires you to use 
drugs, alcohol, and leading to the violence that we see every 
single day. We see the drive-bys killing youngsters coming to 
and from school. If we had the intact family like Ms. McKoy 
describes and like the young student over there, that kind of 
setting, then I can understand. But we are dealing with 
hardcore deviants that are dealing with the way of life that 
causes them to survive. The Just Say No program was a laugh, it 
did not work.
    Anyone on the panel, can you tell me the kinds of programs 
that have been funded in the past that you feel are effective 
in this kind of environment? Because we are losing the battle, 
and we possibly can lose the war. We send our youngsters to 
California Youth Authority and they come out as hardened 
criminals. And there is more drugs supplied inside than outside 
on the streets. There is no rehabilitation going on, and they 
leave there and they become really hardened criminals.
    And I am a big supporter of mental health services because 
I think we have to deal on an even keel with mental health if 
we are going to talk about the physical and biological health 
of these youngsters.
    So can somebody help me understand how we are going to get 
to that hardcore culturally involved young person on the 
streets of some of the areas that I represent?
    General Dean. I will start first. We believe that the 
Community Anti-Drug Coalition addresses your concern, and I say 
that in all due respect because the Coalition is designed to be 
owned by the community, to be empowered so that the community 
will make its own recommended solutions, and it does that with 
guidance and help from organizations like mine and others. But 
what is most important is that all of the sectors in the 
community come together to work the problem holistically.
    When you can bring all of the sectors together, the school 
officials, parents, youth groups, law enforcement, civic 
leaders, business leaders, all of the important sectors of the 
community, we believe that them working holistically will get 
at the issues associated with the kinds of youth that you are 
talking about, as well as the other issues.
    We believe that it takes time, it takes effort, it takes 
commitment and ownership, but it is the best strategy with help 
from the other national programs that we talked about, the 
Media Campaign, Safe and Drug-Free Schools program and others 
that we can get at it and begin to have some impact. And we 
have seen outcomes in other places and we are working 
diligently in your city and your State as well.
    Ms. Watson. A couple of things. Do we have the resources, I 
mean the dollars, that are flowing into California, flowing 
into L.A. Unified, which is our largest school district in the 
State? Their funding has been cut through the State budget, but 
are these programmatic funds coming into California to match 
the need? That is No. 1. And can you give me the program and 
the contacts you have made in L.A. Unified?
    Because we have a serious, serious problem and I would like 
to know, because I can join with them and we can help, and I 
hope we can make policy here. And if we can increase the 
funding, I believe that is why the Chair has called this 
hearing, to look at and see if we have adequate resources, 
because we have a real serious problem, and I don't see us 
making a dent in it. So if you can provide me with the names 
and the contacts within the district or within the police 
department or mental health, or whatever administration you are 
working with, I would be happy to contact them, because I have 
initiated a program that deals with youth and violence.
    Then our Black Caucus has had now 14 different forums 
around the country dealing with the status of the Black male, 
zeroing in on violence, and we had a very successful turnout. 
But we did that on our own and we don't see the funds that are 
coming from the administration into California into programs 
like this. So if you can provide me with that information, I 
would be very, very happy to followup.
    Mr. Jones. I just want to add to what General Dean said 
about those coalitions right there. I also want to add this 
here too: I understand where you are coming from in California, 
but here in Fairfax, VA, we are one of the wealthiest in the 
United States. People think all that money and all this, there 
are no drug problems. Every school system in America has a drug 
problem. Every school system in America and every community has 
an underground culture just like what you are talking about.
    Using the coalitions like what General Dean was talking 
about, we have been able to go into the community, the heart 
and soul, and find out what is going on, and work with the 
people there who can make a difference and empower those 
people. We educate them, we train them, and then they can start 
working in their communities, and we help provide funds for 
them. And having as many different languages as we have in 
northern Virginia, it is amazing how many things we have to get 
translated for the people there.
    But I can say what we are finding out is going into those 
communities, using our coalition connections, we are seeing a 
difference, and we are seeing people come out and say, hey, you 
know. And one of the things, just a few weeks ago I was talking 
with a group of Hispanic youth, and they said, you know, all we 
knew before was chop-chop or shoot or something like that. He 
said, hey, I like this, it gives us something else to do. So 
that is where we are going.
    Ms. Watson. Well, let me just respond by saying that we can 
be a conduit for you, and if you tell us how this network gets 
put together, we would be happy to supply you the venue and do 
the communication and so on. I just don't see the results of 
all that wonderful--you know, it sounds like a dream, something 
we are reaching for. I would like to see it in reality, be able 
to touch it, feel it, and see the results of it, and have the 
appropriate resources to put it together.
    Mr. Jones. Actually, you know, we all dream and, believe 
me, we are trying to make those dreams come true. I will give 
you a name, Bruner Summers, in L.A. Unified school system. By 
the way, we are coming out to your school system in September 
to talk with them about the gang situation out there because it 
has moved over into our area. So there we are once again making 
that network to make it happen.
    Ms. Watson. OK. And I would like to give you another name, 
Marguerite Lamott, who represents a certain area, you know we 
used to call it South Central area. She is the school board 
member representing that area. We work together. We would be 
happy to assist you. Get in touch with us when you come.
    Mr. Jones. I will see you in September.
    Ms. Watson. OK.
    Thank you so much, Mr. Chairman. I have to leave now.
    Ms. Hedrick. Could I, just before you leave? There is a 
teacher in Long Beach, CA, who was in Long Beach, CA, Erin 
Gruell, who made such a difference in the lives of 30 or 40 
kids that she had in her classroom. They have since written a 
book called the Freedom Writers' Diary. Every student in her 
class went on to college and are doing well, and all the 
donations from the proceeds of their book goes to fund their 
college.
    She used some very nontraditional instructional techniques, 
but the one thing that she did more than anything else was she 
approached them where they were. She knew the struggle they 
were in, she heard their story, she helped them relate it to 
things that had happened in history like the Holocaust and 
other horrible events, and she turned those kids around. And I 
think that you are talking about the same kind of culture. Erin 
Gruell, she is a teacher in Long Beach, CA.
    Ms. Watson. That is a long way from the area that I am 
talking about.
    Ms. Hedrick. I don't know.
    Ms. Watson. Yes, it is. I am talking about L.A. Unified, 
and here is Long Beach way down here. OK, thank you.
    Mr. Souder. Ms. McKoy, how did you get hooked in with the 
Safe and Drug-Free School programs? I know you talked about 
your kids, but I was curious what the initial links were.
    Ms. McKoy. I have spent most of my adult life as a 
volunteer in the schools.
    Mr. Souder. But how did that start? So you were 
volunteering with the schools before?
    Ms. McKoy. I was just a volunteer mom in an elementary 
school, and that was many years ago, probably 15, when Mr. 
Jones was a counselor at that school. He was the faculty 
sponsor for the club that my oldest daughter was the president 
of. And together with faculty members and other students, we 
started there and it just grew.
    Mr. Souder. Is that pretty typical in your system how it 
starts? You were at her school.
    Mr. Jones. That started back then. I was a counselor back 
then. Since that time, things have really changed and our Safe 
and Drug-Free Office really initiates a lot. We put it into the 
hands of the community members and they are the ones that look 
right in their communities to make the difference.
    I can say this. I think it was 5\1/2\, 6 years ago when I 
became the coordinator. The second thing I did, I picked up the 
phone and I called somebody by the name of General Arthur Dean, 
at someplace called CADCA. When I called there, we went and met 
with him, and from that point on, building those coalitions, 
getting those parents involved--because me sitting at a place 
with our superintendent and trying to make those decisions 
would not work; we had to go to the grassroots level. And that 
has made all the difference in the world.
    Mr. Souder. Ashley, you said in 7th grade you joined the 
Safe and Drug-Free School Youth Council. Did you read about it 
or did somebody talk to you about it, or how did that happen?
    Ms. Izadpanah. Since I was already a member of the Robinson 
Community Coalition, they offered us the opportunity to attend 
a big meeting, and at the end of the meeting they said if you 
want to be part of the Safe and Drug-Free Youth Council, let us 
know.
    Mr. Souder. Do you know who put the meeting together that 
you went to?
    Ms. Izadpanah. Mr. Jones, probably.
    Mr. Jones. Everything will come back sooner or later. 
Because I am the coordinator, it is my responsibility to 
oversee those programs. So we got the committee started up, and 
those young men and women in that Council have done an 
outstanding job. If you live in northern Virginia, you may have 
seen them on Cox TV, three PSAs that will be running for the 
next 3 years. Ashley is in them and so are a lot of our 
community people. But the Youth Council she is talking about 
represents the whole school system. Each one of the coalitions 
has their own little youth group, but we represent the whole 
school system because we need to get the message out, and we 
needed people like Ashley.
    Mr. Souder. I want to come back to this in just a second, 
but I want to digress because it reminded me of a question I 
had earlier.
    Ashley, at Robinson do you have an in-house TV and radio 
studio that does announcements or occasional programming?
    Ms. Izadpanah. Yes. In the mornings we watch the morning 
announcements and we have anchors, TV anchors.
    Mr. Souder. Is that pretty typical for most of the schools 
in Fairfax?
    Mr. Jones. All of our schools have them.
    Mr. Souder. Is there any kind of Drug-Free Schools program 
that you work there with the kids in each school, in addition 
to like Cox?
    Mr. Jones. Yes. Different schools do their coalitions. 
Coalitions work very closely with the schools. We have to have 
that connection. I don't believe in one--so different schools 
will put announcements on in the morning, especially during Red 
Ribbon Week or during the prom, graduation, the holiday period. 
Those announcements and programs increase big time.
    Mr. Souder. I have never understood why the National 
Department of Education doesn't collect like best ideas and 
share them with the different schools. We have a whole network 
of TV and radio stations right inside the schools, and even 
down in rural Indiana, and I have never understood why we are 
out there trying to figure out how to get on national TV, but 
we aren't utilizing in-house. Has Partnership ever looked at 
the in-house?
    Mr. Pasierb. Yes. We supply our messages to a lot of school 
systems around the country through our local affiliates, 
because those schools want to do exactly what you are 
describing.
    Mr. Souder. Have you ever looked at how to tap into the 
homegrown kind of a sub-theme? In other words, it is one thing 
if it is coming in and it is something that reinforces the 
outside, but something that is bottom-up?
    Mr. Pasierb. There is a lot of passion and talent in those 
schools, and if we could rally them all together to be doing 
the same things in Indiana and Virginia and everywhere else, we 
could have a significant force.
    Mr. Souder. I want to come back to what I was trying to 
piece together here. Bottom line is if you hadn't had the 
program that drew the parent volunteers in, that set up the 
meeting that Ashley went to, how would it get started?
    Mr. Jones. Actually, we didn't. Actually, the coalition now 
is 11 years old. They were just using Safe and Drug-Free 
moneys, putting them in what we call school teams. I came on 
board 11 years ago in the Safe and Drug-Free Office, and one of 
the questions I asked along with the coordinator at that time 
was is this making a difference, and the bottom line was no. So 
let us turn this. How can we make a difference? Let us get a 
bang for our buck, we would say. Let us see that we get results 
out of this. And I think I brought that--and they kid me a 
lot--from the military.
    Mr. Souder. Again, I missed the start of what you said. If 
I understand what you said, it is that there was no system-wide 
thing like what you describe.
    Mr. Jones. Not like we have now.
    Mr. Souder. But you were using your local schools' money to 
do that. Is that what you said?
    Mr. Jones. Oh, no, no. They used Safe and Drug-Free moneys 
way back then, 10, 11, 12 years ago.
    Mr. Souder. At the school where you were a counselor?
    Mr. Jones. When I first came to Fairfax County, I was a 
counselor at Dogwood Elementary School.
    Mr. Souder. And did you get Mrs. McKoy involved?
    Mr. Jones. As soon as I got there and they wanted to do a 
drug program, I said I am going to get me some parents, because 
I can't do this. So I started grabbing parents and bringing 
them in. At my first meeting I had 30-some parents and said, 
this is great. And one of the things that we did, and probably 
the biggest project, and Mrs. McKoy will probably never forgive 
me for this, but we even called Just Say No International and 
they sent a person out.
    We have the largest Just Say No quilt in the world because 
we got a group of parents together one evening, gave over 280 
kids an 8 x 8 piece of cloth they could put a design on that 
cloth. We brought all these parents in and they sewed all night 
long to put this quilt together. So that was just one of the 
many things we did. And we started getting a lot of attention 
about this program and Just Say No, and how to do anti-drug 
programs there.
    And then from there, once I moved over to the Safe and 
Drug-Free Office, that is when we started getting in touch with 
General Dean and said, hey, let us expand this even more. Then 
he started talking about coalitions, you know, we have 
something small here, let us find out what it is all about. And 
they educated us. They trained us. We hold trainings several 
days, actually 3 weeks with 2 days at Ft. Belvoir, where he 
brought in through CADCA trainers to train our people, not just 
school people, we are talking about community people and some 
school people mixed in with them, on how to build unity, how to 
do the grass roots work that the young lady was talking about. 
We brought those people in.
    And from that right now, I can give you probably the best 
example. Three months after one of our coalitions, because a 
coalition, they had a house bill on the floor in the general 
assembly in Richmond to increase the age at which students can 
sell alcoholic beverages. Now, that is how fast some of those 
coalitions are going. And right now we are pushing those same 
coalitions into becoming 501(c)(3) just in case something like 
this happens and we have none. Right now we have four of our 
coalitions--and we have 19 of them--501(c)(3)'s, but we want to 
keep growing, because that is what it is all about, getting 
people involved and community members. And by doing that you do 
make a difference. When you walk up and down the streets, you 
see on TV and go into our schools, you see anti-drug posters 
and stuff. That is what it is all about.
    Mr. Souder. Dr. Hedrick, during Mr. Curie's testimony he 
talked about these prevention networks, the Strategic 
Prevention Framework. Are you familiar with that?
    Ms. Hedrick. Yes, I am.
    Mr. Souder. Do they work with your State trying to 
coordinate, or how does it interact with this program?
    Ms. Hedrick. Well, it specifically applies to the 
Governor's portion. They require their grantees to use an 
outcome framework, but also to use the national prevention 
framework for going through the process of identifying needs, 
building capacity and building in the evaluation. There is a 
lot of emphasis in that structure on building the capacity from 
within, whether that is a school or a community. It still is 
the same thing; it enables people to carry on and sustain 
beyond a funding period.
    Mr. Souder. Has that been helpful?
    Ms. Hedrick. And it has been very helpful, yes.
    Mr. Souder. General Dean, do the CADCA programs interact 
with the Strategic Prevention Framework?
    General Dean. Yes, they do. We have created a National 
Coalition Academy, where we are training community groups, and 
we are working with the National Guard to do that and we are 
using the Strategic Prevention Framework, which is really just 
that, it is a framework, a five-step framework as the basis for 
providing the training to these communities. So you are 
teaching them how to do an assessment, how to strategically 
write a plan, how to implement that plan, and how to evaluate 
it. I forget the fifth step. So the bottom line is we are 
teaching this prevention framework to community groups across 
America so that all of us are working from the same basis.
    Mr. Souder. Do you know is anybody looking, and I presume 
each State drug coordinator is, but who looks at a zone and 
says there is a CADCA program here and here is where the Safe 
and Drug-Free Schools programs are? I am still kind of confused 
as to where the $600 million from Mr. Curie's administration 
goes into prevention programs. But are all those prevention 
programs coming in an area rhymed or coordinated?
    General Dean. Mr. Curie's dollars go to States, to include 
his Strategic Prevention Framework money goes to States. So 
those are grants that go to States.
    Mr. Souder. They bid for those grants?
    General Dean. And then States that have a plan take those 
dollars and improve the communities within the State. So the 
State is sorting out how to distribute and utilize the dollars 
that come in through the treatment block grant, as well as the 
prevention block grant, as well as the Strategic Prevention 
Framework dollars, and how they have access to recovery dollars 
coming in as well. So the State prevention effort is 
determining how best to use those dollars in the State.
    Now, at the community level, the coalition is doing what 
you just said, because the Safe and Drug-Free Community people 
are a part of the coalition. Therefore, they are working 
holistically and strategically and complimentary to each other, 
and not getting in the way of each other. And that is why in my 
testimony I was so concerned that if you pull away the Safe and 
Drug-Free Schools dollars that provides the infrastructure in 
the schools, how then do you implement student testing? And 
then who the coalition people have to work with in the schools 
to have a holistic approach in the community?
    Mr. Souder. Is Ohio divided into regions? I know Indiana 
is.
    Ms. Hedrick. Well, every system has different regions.
    Mr. Souder. Does the Governor have a subset in his program 
that he is doing?
    Ms. Hedrick. No. In Ohio, those two programs, however, have 
really set an example of working collaboratively together. In 
fact, the education coordinator goes to many of the SAMHSA, and 
there is a part of SAMHSA called Central Cap. They attend those 
functions together so that they present a more unified picture 
of Safe and Drug-Free Schools programming.
    What we don't have as much within our State, and I think a 
lot of States are like us, is a sort of clearinghouse of all of 
those different programs where there is coordination and 
synergy created. I think that is probably an ideal world, and 
certainly the Drug-Free Communities Coalitions would be a 
vehicle for doing that.
    Mr. Souder. General Dean, do you know if in most States 
there are subregions? In other words, partly what I was trying 
to get at is I believe that every State has political dynamics 
that are impossible to deal with if we move off of the school 
funding formula. Our State versus Detroit versus Chicago and 
Indianapolis thinks they are the only thing there, and the rest 
of us have to fight for every little crumb we get. There is 
this constant big city/small city/mid-size city battle. Even in 
a county like Noble County, IN, the west side and the central 
side and the east side fight with each other as to who is going 
to be dominant even in a rural county.
    But what often this means is the units of dollars that go 
down to the schools are often not necessarily functionable. In 
other words, they can't hire a full-time staffer. If we pulled 
it back larger so you kind of clustered, whether it is similar 
counties together, I don't know how big that is, do you know 
how many people pool their resources? Is it banned from pooling 
resources now? How many do that? Is there a way to try to 
encourage that more, give incentives that you get some bonus 
out of State money if you pool resources?
    A system like Fairfax is the 12th largest. You pool 
resources because you already do that. A lot of my high school 
districts only have one high school in them, and one middle 
school and two elementary schools. Yet, they will get a certain 
amount of funding in, and that is how we get these horror 
stories that come through on pencils or a school that didn't 
get the supplement, particularly if they don't have outside 
resources. If it is a reasonably wealthy or activist community, 
they pool the outside resources to leverage it.
    But what do you do in a community where you maybe have Back 
to School Nights? When I was a staffer, I lived in Little Rocky 
Run. The first time I went to a Back to School Night at Little 
Rocky Run out in West Fairfax, there were, I believe--they had 
to split it into two nights--there were 900 students and 1,600 
parents at Back to School Night. When you go into an urban 
center, often there will be 900 students, and if you have 20 
students at Back to School Night in some areas in rural, it is 
a different ball game with resources and how you can leverage.
    So what can we do and what would be some creative ways to 
look at this to push some of that kind of cooperation or 
standards? Because the truth is that we are at the edges of a 
problem, but the administration didn't propose a solution to 
the problem, they just proposed wiping out the dollars.
    General Dean. I guess obviously we believe, and we have had 
some professional discussions with Department of Education and 
others, that the community, the local education agency is the 
place where the money needs to be. Fairfax County is an example 
of the end of the pipe chain, whereas States are important, but 
I would agree that they have a difficult time ensuring that 
every entity in the State is afforded the appropriate treatment 
and appropriate dollars.
    So we are of the opinion that when you can send dollars 
directly to LEAs or directly to communities, that is the best 
way to do that, and that is why we are concerned if too many of 
the dollar start having to go through States to get down to 
communities.
    Mr. Souder. How much do you get per student in an LEA?
    General Dean. It varies I guess depending on the LEA.
    And you probably can answer that question better than I 
can.
    Mr. Souder. Is there a minimum?
    Ms. Hedrick. No, I can't answer that question.
    Mr. Jones. In Virginia, if I am correct, something like 
$4.75 prevention per student, something like that.
    Mr. Souder. Four?
    Mr. Jones. It is $4.75 per student.
    Mr. Souder. So around $5 per student.
    Mr. Jones. Yes. I can say this: one of the things that we 
have done, actually because of our collaboration with a lot of 
different programs, when we have trainings for violence 
prevention, definitely drug prevention, we open it up to other 
counties around us to make sure this is what you are getting 
at, make sure they can come in and take part in that also.
    Each year we have our peer mediation conference, which over 
2,000 people attend. We actually invite counties as far away as 
the other side of Virginia, way out in the southwest corner, to 
come up to be a part of that, and they love it. So I think the 
more individual school systems can do that, it really brings a 
bond between those systems right there.
    But you are right, that money getting down to LEAs, there 
is a lot that is cutoff before it gets there.
    Ms. Hedrick. In the handout I prepared for you, on page 8, 
it is called the Spotlight of Safe and Drug-Free School 
Consortia in Toledo Diocese and Franklin Counties. In Ohio we 
have 10 collaborative or consortia that operate. What they do 
in a particular county is they will pool their Safe and Drug-
Free School funds, because many of them are $2,000 or $600 or 
whatever, so they get more out of the money by pooling it 
together. And they have been quite effective, and some of the 
examples are there for you on page 8.
    Mr. Souder. Thank you.
    I want to finish with a few questions on the National Ad 
Campaign. There are a lot of different ways I can go. One 
thing, by the way, in your testimony, I believe you showed in 
your one chart that meth use declined. Have ads been run on 
meth?
    Mr. Pasierb. We have been doing those on our own as a 
public service through the Partnership for a Drug-Free America. 
But the overall national teen trend on methamphetamine is 
continuing downward. The damage that methamphetamine is doing 
to communities in perhaps older teens and young twenties folks 
is very significant. So what you are seeing in Indiana in terms 
of methamphetamine impact may not always surface in the high 
school in the other studies, so we, through the Partnership for 
a Drug-Free America, have been doing meth campaigns and 
actually doing more year in and year out.
    Mr. Souder. Why do you believe methamphetamine is declining 
at a faster rate than all the others?
    Mr. Pasierb. Well, I don't think it is declining at a 
faster rate, but what we are seeing is that----
    Mr. Souder. Thirty-eight percent less likely have tried 
methamphetamine, 31 percent less likely tried crack, 29 
ecstasy, 14 percent marijuana, 8 percent others.
    Mr. Pasierb. Well, among teenagers, certainly, the risk 
profile of methamphetamine is very high. We did a program in 
Arizona and in Missouri, which really helped the parents 
understand how much further their kids were out in front of 
them. Kids know that methamphetamine is a very dangerous, very 
addictive drug, so it has a very high risk profile, versus 
things like ecstasy did originally, like right now prescription 
and over-the-counter drugs don't have among teens. So it is 
that driving the perception of risk which is one of the keys. 
And it is happening not only through the Media Campaign, but 
also through the news media. Teens are seeing the damage meth 
is doing to their communities.
    Mr. Souder. Driving up the risk and communicating it is 
probably what you are saying. The more clear-cut it is, the 
easier it is to have a major reduction.
    Mr. Pasierb. Absolutely.
    Mr. Souder. And that marijuana is the hardest sell?
    Mr. Pasierb. Yes, because kids know that use won't addict 
them, first use won't kill them; whereas, with methamphetamine, 
you can talk about the incredible damage it does and it is very 
obvious. And they also see. Again, teenagers see what the 
clandestine labs, what the things are doing to the community 
they live in; it is a noisy drug, which, for those of us in 
prevention, does tend to help a little bit.
    Mr. Souder. I am having an extremely difficult time. We are 
starting to see some flat-lining in Indiana on meth, but every 
time we have a drug task force meeting, every time any group of 
members get together, I mean, clearly 75 percent of the 
discussion is on meth. And out of our opinion, leaders in the 
administration and others, there is minimal discussion on meth, 
and what we hear is that it is flat at 8 percent. Now, I think 
part of it is that people make the risk assessment, that area 
starts to go flat, and it hits another area.
    Have you thought about an Ad Campaign? When you look at 
this geographically, it is not too hard to see where it is 
headed. How come we don't do the risk attention on the meth the 
second it appears in a community, before it devastates a 
community? In other words, can't we look at any kind of 
regional strategies here? It is moving through Kentucky, it is 
heading to Tennessee, it is starting to show its head in North 
Carolina. There are a few edges of some suburbs. If this hits 
the cities like crack----
    Mr. Pasierb. Exactly.
    Mr. Souder [continuing]. We may fix it, but we are going to 
spend so many millions and billions fixing it. If it is an 
easier sell, why can't we get ahead of this curve?
    Mr. Pasierb. That is one of the things I think people are 
fooled by. They look at the small number and they say it is not 
that big of a problem. But it could go from being a fringe 
behavior to being a mainstream teen behavior, like crack did, 
like ecstasy did. You can all of a sudden go from this much to 
a huge amount.
    We did a piece of research in Phoenix and St. Louis, where 
we launched a program called the Meth and Ecstasy Health 
Education Campaign, where we went into the community, mobilized 
the community much in the way that we are talking about here, 
but very importantly got law enforcement together with the 
medical community, media trained pediatricians who the American 
Academy of Pediatrics, so that when this hit, just as you said, 
when you saw this coming, we could go in, get the media 
together, help them understand the health risks, the reason why 
mom and dad might engage, might say we live in a good 
neighborhood, that is not going to happen here; understand the 
risk to their own kids and very quickly implement that with the 
health message, the health messenger being the doctor, with the 
support of law enforcement kind of standing behind them saying 
we can't arrest our way out of this.
    We have taken the Phoenix and St. Louis program now this 
year to four State-wide initiatives and eight major city 
initiatives. So we are trying, through the budgets and the 
efforts of the Partnership for a Drug-Free America on our own 
to do exactly what you said, because you are seeing that in 
Indiana and we need to be in Indiana doing that as well.
    That is the way to do it. When this hits a community, help 
the community understand what is going on. And even absent of 
the usage numbers, the damage this does to families, to 
communities, to the kids that are in where these clandestine 
labs are, to spousal abuse, to violence in the communities. 
Methamphetamine does damage well beyond the absolute numbers in 
the usage study.
    Mr. Souder. I would like you to address--and we will finish 
with this--for the record two big things as we are working on 
the authorizing legislation for ONDCP. If we actually named you 
in the authorizing legislation, one of the historic things--and 
this is kind of a two-part--is how we evolved into having 
Ogilvy and Mather privately contracted. Part of the thought was 
to have competition.
    Could you address that question? If in fact, because 
partnerships have been there before we had the Ad Campaign. I 
am not saying we are going to quit the Ad Campaign, but it will 
probably be there after we don't have an ad campaign someday. 
Could you, as we are wrestling with this fundamental question, 
what assurances would we have if we, in effect, sole-source 
this? That indeed there would be competition, that we get the 
best rates, that there is a double-check. If you could address 
that.
    And the second part of it is I have some empathy, and we 
have had lots of discussions about this in public and private 
and all types of things over the last few years as we tried to 
get over some bumps that existed a number of years ago. How 
can, when the drug czar or the office of ONDCP, the Director, 
wants to set a direction, how can he be assured if he, in 
effect, sole-sourced, that the ad content would reflect what he 
has been charged with by the President and by Congress to 
reduce that, when you wouldn't necessarily? You have goals, but 
everybody has differences of opinion, but aren't necessarily 
now in a position where the contract could be moved around or 
don't feel the same pressures?
    Mr. Pasierb. Well, I think, if I understand the first one 
right, our involvement in the Media Campaign, the original idea 
behind the Media Campaign was to invest the public dollars to 
give maximum exposure to our Campaign. And we work on the 
Campaign for free. We receive none of the dollars from the 
Campaign.
    We really exist to get advertising agencies, production 
firms, the talent union, SAG and AFTA, to volunteer their time. 
So from a competitive standpoint, you can't get better than 
free. And we exist to do this. This is our only purpose in life 
as an organization. We were created to bring the talent and the 
energies of the communications industry to bear on this issue. 
So we exist to do exactly what needs to be done on this.
    And if we are named in it, I think what it may do from the 
most standpoint is create some clarity around this of what our 
roles are, what the expectations are, quite frankly, of the 
Federal Government for the things that we provide. I think 
codifying that and a lot of the things that have been discussed 
with ONDCP, talking about codifying our role, makes great 
sense, and it helps a lot of the folks who we have to go out 
and ask for free to do that.
    The contractor issues, the people that ONDCP has hired to 
work for them, I think John Walters has done a masterful job of 
cleaning their house and getting that to a point where his 
contractors, the people who meet his needs for media planning 
and some of the public relations and things that he wants to 
have around the campaign be on the advertising that we provide, 
he has done a good job of sorting that out with Foote, Cone, 
and Belding and the people he has now. He has good folks.
    But our role, the Partnership for a Drug-Free America, is 
to work for free and to harness volunteerism in support of the 
campaign. That is why in my testimony I mentioned that by our 
accounts we have actually contributed $125 million to the 
campaign. So we see ourselves as a stakeholder.
    To your second question, we are all, for the most part--
obviously people want to focus on different things--guided by 
the research. We can't do what we would like to do, we have to 
do what the data tells us--the National Household Survey, the 
Partnership Attitude Tracking Study. While we, over the past 
few years, have felt through our good offices we should focus 
on things like methamphetamine and ecstasy, John Walters had 
pursued the President's strategy of the 10 percent and 25 
percent reduction. The only way to achieve those numbers is to 
go after marijuana.
    So we view ourselves as actually right now being in very 
good synch with ONDCP, because they are tackling the major, 
most difficult issue, driving down the marijuana numbers, while 
we are working at the community level on ecstasy, 
methamphetamine, more and more on prescription and over-the-
counter drug abuse things like cough medicine. So we are always 
going to be in sync with ONDCP.
    I think where we fell out of synch, particularly in the gap 
between Director McCaffrey leaving and Director Walters coming 
in is when ONDCP hired a group of theorists to come up with 
something that made no sense, and a program which was more 
testing theory for the purpose of writing journal articles than 
doing what the campaign was created to do, serve the public. So 
as long as there is a leader at ONDCP with focus on reducing 
drug abuse, by the very nature of that, ONDCP and the 
Partnership are going to be in perfect synch.
    Mr. Souder. But isn't part of that because, in fact, on the 
marijuana campaign, to take that example, that he had the 
ability to go to another ad agency and say I want marijuana ads 
that do this; whereas, if we said----
    Mr. Pasierb. We did them all. We did all the marijuana ads, 
Partnership for a Drug-Free America did. No other advertising 
agency did them. I mean, we came together on strategy under the 
gap between Director McCaffrey and Director Walters----
    Mr. Souder. I thought you just said that you did the meth.
    Mr. Pasierb. No, we run our media. We get over $150 million 
a year of contributions.
    Mr. Souder. Because Ogilvy was doing placement.
    Mr. Pasierb. Exactly. We did all of the creative, all of 
the marijuana creative. When Director Walters came in and he 
said he wanted to hit hard on negative consequences, and he 
really wanted to go after marijuana, that was exactly what we 
had put in our letter to General McCaffrey.
    Mr. Souder. If you did all the placement----
    Mr. Pasierb. If we did.
    Mr. Souder. If you did under a new bill, would that affect 
the director's ability to use leverage to get his campaign done 
the way he wanted it?
    Mr. Pasierb. Absolutely not. We have to look at this as 
whoever is in that office as being a client, and he works for 
the President and he works for you, and he has to do what you 
all want and we have to do what he wants. And, again, that is 
where I come back to we support fully what he is doing on 
marijuana because we know that is the overall suppressant, and 
we deal very tactically in Kentucky and Indiana and places on 
things like methamphetamine, which are really kind of 
inefficient for the Media Campaign to do, go in and buy the 
same television program in a bunch of different cities.
    So I think you can structure something that would 
definitely lead to a degree of sync and support and 
understanding of what people's roles and responsibilities are.
    Mr. Souder. This is a question we are trying to work 
through, and it is a very difficult question because depending 
on what your creative department was thinking, which is what we 
tried to work it through, because guys aren't going to devote 
their time if they don't think their ads are going to be run. 
Bottom line, they are not going to donate their time. Second, 
the question is if you can get the placement for free, why 
would you pay for it, which has been another question.
    But also this feared question of management. I think it is 
fairly safe to say, as somebody who has followed politics just 
kind of as an observer and a staffer, and now as a Member, is 
that it isn't always true that the person who is in the 
director's position can dominate groups that are there before 
and after them. And we had some of that tussling, and we had a 
very frank discussion with your board, who believed that there 
had built up some resistance, because there can be ideological 
differences about whether you go hard line or soft line in drug 
abuse, and what do you do when you have a sudden administration 
change and an ideological change? And we need to make sure that 
we have a system here that is flexible enough to reflect that.
    On the other hand, as you know, I have been a strong 
advocate of the Partnership, and I believe that if you are 
going to get the most skilled people who donate it, it doesn't 
necessarily make sense to pay for what you can get people to do 
for free, particularly if we are fighting for every dollar to 
try to get air time, because the bottom line here is we want to 
make sure we have research, we want to make sure we have 
creativity. But bottom line, if nobody sees it, so what if you 
have great ads? Or a more correct marketing way to say it is if 
you don't meet the threshold where it is remembered, it is not 
that we are not putting it up there, if it doesn't meet the 
threshold that it is remembered, then you have wasted all the 
other money.
    And at some point here we are going to reach, if we don't 
keep this at a threshold with the leverage, the return 
declines, and then the whole program tanks. In other words, at 
$100 million you might be wasting money. I don't know what the 
number is. Obviously you can cluster it in regions and do it in 
waves and that kind of stuff, but your returns become such a 
decline that you have wasted the whole batch; whereas, another 
$10 million makes it so that you get the reach with which to 
accomplish the goals.
    And that is what we are teetering on the edge of, and you 
need to continue to push and speak out if you think we are 
getting to that, because I think we are nearly there, because 
with rates in advertising going up, with consolidation in the 
industry, not to mention the changes with the Internet and 
satellite and everything else, I don't know how you get reach 
and frequency anymore.
    Mr. Pasierb. You covered a lot of territory, and let me say 
I agree with everything you just said. And you are right, I 
mentioned in my testimony that $195 million, the original 
number that you and a lot of others put together a number of 
years ago, was the right number, and over the last 8 years 
there has been between 8 and 12 percent per year media 
inflation.
    So the threshold of this campaign at $120 million is right 
about there. We couldn't suffer another cut and continue the 
level of effectiveness, the level of good reads we are getting 
out of the research, seeing Monitoring the Future mention the 
Media Campaign specifically as driving the marijuana trends at 
any lower than we are now, and we have been fighting and 
advocating very hard over the last several months to try to 
restore that last $25 million cut, because, to your point, the 
beautiful model of this campaign is that $25 million leverages 
another $25 million. We are able to get the best and brightest 
advertising agencies around the country to volunteer hundreds 
and millions of dollars worth of talent to make sure the very 
best message gets in that time. And we agree with Director 
Walters to make sure that every one of those messages, before 
it runs, is tested so that we actually make sure we put the 
best possible message in that time.
    And doing all these things, as you identified, is 
absolutely essential to making sure the campaign works this 
year, next year, and years in the future, regardless of who is 
the ONDCP director, doing what is right for the issue, doing 
what is right for the consumer.
    Mr. Souder. You made a great point earlier too when you 
said that basically if McDonald's has a great--you didn't say 
it exactly this way, but that is what you said--if McDonald's 
has a great ad campaign, they don't say, well, we don't need as 
much advertising for the next 3 to 6 months. Obviously, if you 
are pushing it, tomorrow is another day, and you maybe get a 
little bit of residual brand name, but the second you back off 
it is gone, and in advertising there is no principle ``we had a 
great ad, now we can tank it.'' That is not what you see 
anywhere.
    Mr. Pasierb. In advertising you invest in success and you 
don't invest in failure, and right now we have success at a 
time when we are decreasing our investment, and it doesn't make 
any sense. And particularly in my written testimony I mentioned 
I came from the community coalition field. I worked for 
Governor Schaeffer in Maryland and did a lot of different 
things like that. One of the benefits of ONDCP's Media Campaign 
in particular is it gives all of us working in this field the 
national umbrella, the air cover when we are either working in 
a community on methamphetamine. The fact that ONDCP ran a 
parenting message on TV that night helps us with the efforts we 
are trying to do on methamphetamine specifically in a 
community. So it really becomes a 1 + 1 = 5 in this case, and 
it is important to keep it going.
    Mr. Souder. And we want to make sure that the record shows 
that the Partnership said that it was mixed, it was good news 
for the Ad Campaign, but not necessarily good news for America, 
so it doesn't come across as Partnership praises TV now more 
important influence than parents. That is absolutely not. In 
fact, it was a very troubling statistic, but it shows how the 
country is changing. And the fact that No. 1, as I understood 
your testimony, the No. 1 way that kids said they were getting 
their information now was through, in effect, this National Ad 
Campaign, the Partnership, and television.
    Mr. Pasierb. And even Ashley's message running on Cox in 
Virginia. Media, television is the way. And, unfortunately, 
what we have learned through our own parents' research is in 
the last 3 years the number of parents who have never talked to 
their kids about drugs has doubled from 6 percent to 12 
percent. So at a time when we have the most drug experienced 
generation in the history of parents, they are talking less. 
The ones who are very overconfident in the discussion that they 
are having, because we know that about 85 percent of parents 
say they are talking, but only about 30 percent of kids say the 
message is coming through.
    And parents don't understand the evolution of the drug 
issue. If you were a high school student in 1979, the drug 
issue looked like marijuana and cocaine. To a high school 
student today, depending on where you live, it looks like 
methamphetamine, it looks like ecstasy, it looks like 
prescription drugs, it looks like over-the-counter drugs, it 
looks like alcohol, it looks like inhalants, and it looks like, 
looks like, looks like. It is much more complicated, and we 
need now parents engaged. I want to see parents beat the pants 
off television commercials.
    Mr. Souder. I am sure there are studies that compare the 
informal movie TV shows, the Jay Leno and joking about 
marijuana and somebody on crack and the movies, that type of 
thing with the official messages and how the kids are viewing 
the two messages separate from each other and how they 
reconcile it in the cognitive dissidence?
    Mr. Pasierb. Right now we are at a point where the negative 
social impact of a lot of the joking around about marijuana and 
things like that is a low point. So it is not having a negative 
impact against us. But what we need and what we know really 
helps is when a show like ER does a story line that talks about 
teens and drugs and the impact it can have. That has such a 
power even beyond our messages for all of us that popular 
culture, popular media could be our biggest ally, but it can 
also be our biggest problem. Right now they are essentially 
neutral.
    Mr. Souder. I saw some pro-drug group whining away about 
the Law and Order type shows, that they always show the drug 
people as kind of whacked out and violent, as opposed to having 
normal lives. A lot of this is just kind of fortunate and 
cultural, because we have all this CSI and Law and Order and 
all this kind of stuff, and they need criminals, and since 85 
percent of all crime is somehow related to drug and alcohol 
abuse, they are going to find their examples from that.
    Mr. Pasierb. I don't know many regular meth users who look 
normal. Or many regular a lot of different drugs. I mean, there 
are a lot of folks out there, particularly on the marijuana 
front, who want to make it sound like that is as socially 
acceptable as having a bottle of Evian, but clearly we need the 
CSIs, and actually it is a good point in time when reality TV 
and a lot of the crime shows to show the potential downside of 
drug use.
    Mr. Souder. Well, I thank you all very much for your 
testimony, for coming today. If there is anything else you want 
to put into the record, any other documents, articles, 
different things, we get a hearing book when we are done that 
will be one of the resources on prevention that we can then use 
in debates and different groups can use as well.
    Mr. Pasierb. Mr. Chairman, if you have any written 
questions for us regarding our role, the questions you asked 
me, we would be happy to answer those in writing as well.
    Mr. Souder. OK. We may do some followup on that.
    Mr. Pasierb. Anything you want from us you have.
    General Dean. Thank you, Mr. Chairman.
    Mr. Pasierb. Thank you, sir.
    Mr. Souder. Thank you very much.
    The subcommittee stands adjourned.
    [Whereupon, at 4:59 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3687.114

[GRAPHIC] [TIFF OMITTED] T3687.115

[GRAPHIC] [TIFF OMITTED] T3687.116

[GRAPHIC] [TIFF OMITTED] T3687.117

[GRAPHIC] [TIFF OMITTED] T3687.118

[GRAPHIC] [TIFF OMITTED] T3687.119

[GRAPHIC] [TIFF OMITTED] T3687.120

[GRAPHIC] [TIFF OMITTED] T3687.121

[GRAPHIC] [TIFF OMITTED] T3687.122

[GRAPHIC] [TIFF OMITTED] T3687.123

[GRAPHIC] [TIFF OMITTED] T3687.124

[GRAPHIC] [TIFF OMITTED] T3687.125

[GRAPHIC] [TIFF OMITTED] T3687.126

[GRAPHIC] [TIFF OMITTED] T3687.127

[GRAPHIC] [TIFF OMITTED] T3687.128

[GRAPHIC] [TIFF OMITTED] T3687.129

[GRAPHIC] [TIFF OMITTED] T3687.130

[GRAPHIC] [TIFF OMITTED] T3687.131

[GRAPHIC] [TIFF OMITTED] T3687.132

[GRAPHIC] [TIFF OMITTED] T3687.133

[GRAPHIC] [TIFF OMITTED] T3687.134

[GRAPHIC] [TIFF OMITTED] T3687.135

[GRAPHIC] [TIFF OMITTED] T3687.136

[GRAPHIC] [TIFF OMITTED] T3687.137

[GRAPHIC] [TIFF OMITTED] T3687.138

[GRAPHIC] [TIFF OMITTED] T3687.139

[GRAPHIC] [TIFF OMITTED] T3687.140

[GRAPHIC] [TIFF OMITTED] T3687.141

[GRAPHIC] [TIFF OMITTED] T3687.142

[GRAPHIC] [TIFF OMITTED] T3687.143

[GRAPHIC] [TIFF OMITTED] T3687.144

[GRAPHIC] [TIFF OMITTED] T3687.145

[GRAPHIC] [TIFF OMITTED] T3687.146

[GRAPHIC] [TIFF OMITTED] T3687.147

[GRAPHIC] [TIFF OMITTED] T3687.148

[GRAPHIC] [TIFF OMITTED] T3687.149

[GRAPHIC] [TIFF OMITTED] T3687.150

[GRAPHIC] [TIFF OMITTED] T3687.151

[GRAPHIC] [TIFF OMITTED] T3687.152

[GRAPHIC] [TIFF OMITTED] T3687.153

[GRAPHIC] [TIFF OMITTED] T3687.154

[GRAPHIC] [TIFF OMITTED] T3687.155

                                 <all>

</pre></body></html>
